<html>
<title> - DEPARTMENT OF THE INTERIOR, ENVIRONMENT, AND RELATED AGENCIES APPROPRIATIONS FOR FISCAL YEAR 2017</title>
<body><pre>[Senate Hearing 114-]
[From the U.S. Government Publishing Office]




 
     DEPARTMENT OF THE INTERIOR, ENVIRONMENT, AND RELATED AGENCIES 
                  APPROPRIATIONS FOR FISCAL YEAR 2017

                              ----------                              


                        WEDNESDAY, APRIL 6, 2016

                                       U.S. Senate,
           Subcommittee of the Committee on Appropriations,
                                                    Washington, DC.

    The subcommittee met at 10:09 a.m., in room SD-124, Dirksen 
Senate Office Building, Hon. Lisa Murkowski (chairman) 
presiding.
    Present: Senators Murkowski, Hoeven, Daines, Udall, Leahy, 
Tester, and Merkley.

                      UNITED STATES FOREST SERVICE

STATEMENT OF TOM TIDWELL, CHIEF
ACCOMPANIED BY TONY DIXON, DIRECTOR OF STRATEGIC PLANNING, BUDGET, AND 
            ACCOUNTABILITY

              OPENING STATEMENT OF SENATOR LISA MURKOWSKI

    Senator Murkowski. Good morning. We will call the committee 
to order.
    We are here today to review the fiscal year 2017 budget 
request for the United States Forest Service. Chief Tidwell, it 
is good to have you back before the subcommittee. Thank you for 
being here.
    I would also like to welcome Mr. Tony Dixon, who serves as 
the Director of the Office of Strategic Planning, Budget, and 
Accountability there at the Forest Service.
    I just remind colleagues that my hope is that we will be 
able to do several rounds of questions here this morning, 6-
minute rounds, but we do have a vote at 11 o'clock. So we will 
figure out how to deal with that when we get to the 11 o'clock 
hour.
    To the budget request itself, the Forest Service has asked 
for $4.8 billion for fiscal year 2017. That is 13 percent or 
$730 million less than the current enacted level, primarily 
because of the additional $593 million Congress provided above 
the 10-year average for fire suppression in the event of a 
severe fire season in fiscal year 2016.
    Again, the Forest Service has requested an additional $864 
million for a wildfire disaster cap adjustment to bring the 
total fire spending authority at the agency to over $1.7 
billion.
    I am pleased the request builds upon the increases the 
subcommittee included last year for hazardous fuels management. 
I also appreciate the funding proposed for the Forest Inventory 
Analysis (FIA) program to continue to expand that program into 
interior Alaska. FIA provides critical information to States, 
industry, and other land managers on the health of all of our 
Nation's forests. And I appreciate that this budget includes 
funding for subsistence programs, which are critical to 
managing the subsistence resource in State of Alaska.
    But there are some things that I find concerning. As you 
know, Chief, this subcommittee is bound by the caps established 
by the Budget Control Act. But unfortunately, the President's 
budget does not adhere to this reality and chose to put 
together what I consider to be more of a wish list of mandatory 
spending.
    The budget requests $128 million for Federal land 
acquisition through the Land and Water Conservation Fund, $62 
million of which is proposed to be mandatory spending. We know 
that our Nation's forests have dire management needs--we will 
certainly hear more about them this morning--and rather than 
investing in those, the administration has again prioritized 
land acquisition, which I have to confess I just do not get it.
    I have said on more than one occasion in this subcommittee 
that when it comes to the Forest Service budget, I feel like it 
is Groundhog Day again, and unfortunately, we are here again 
today and it feels like that. The progress on keeping the 
timber industry alive in Alaska, southeast Alaska is too little 
but only too late if the policies continue on as they have 
been.
    During questions, I want to take the opportunity to follow 
up on some issues that I raised with you when you were before 
the Energy Committee, so we will carry on that conversation.
    But I do want to point out that it is not only southeast 
Alaska that is suffering. The budget is an example of how the 
Forest Service seems to be drifting away from being managed for 
multiple-use and sustained-yield, as well as basic forest 
management.
    The National Forest System budget activities, which 
represent the agency's most fundamental responsibilities, get a 
cut in the budget. And this is particularly frustrating in 
light of the manner in which the administration continues to 
propose a wildfire cap adjustment that moves 30 percent of the 
cost of wildfires off-budget. Now, this has purportedly been to 
allow the most devastating wildfires to be treated as 
disasters, while allowing the Forest Service to invest the 
savings into active forest management activities that your 
department has long indicated are necessary to reduce the costs 
associated with wildfire and increase forest health.
    Unfortunately, I just do not see this playing out in the 
budget request. I know that the 10-year average has increased, 
and that has to be accounted for in the budget request. But the 
savings that you have requested to achieve have resulted in a 
request that invests less than $10 million more in fuel 
reduction and actually cuts Federal forest management.
    So it does not make sense to me. On the one hand you say 
that you need to have the wildfire cap adjustment moving more 
off-budget. And there are going to be some savings. With those 
savings, we will work to deal with the forest management 
practices, but we are just not seeing that translate in your 
budget request which invests less than $10 million more in 
fuels reduction and actually cuts Federal forest management.
    So this is one of those reasons that I support the creation 
of a cap adjustment as long as it is fiscally responsible and 
accompanied by what we would consider to be meaningful forest 
reforms.
    So I will continue to push for funding choices that allow 
us to have both healthy economies and healthy forests. And if 
we work toward that as our goal, I think that we will solve 
many of the problems that we face. We would not require 
hundreds of millions of dollars for subsidies to our logging 
communities. We could make great strides in reducing fuels 
loads on our Federal forests. We could make advancements in 
technology that will result in commercial uses for currently 
non-merchantable timber. And most importantly, we could have 
thriving and healthy communities and forests.
    So we will have a series of questions, and I look forward 
to that. Again, Chief I appreciate you being here, and I look 
forward to your testimony.
    And with that, I will turn to my friend and colleague, 
Senator Udall.

                     STATEMENT OF SENATOR TOM UDALL

    Senator Udall. Thank so much, Senator Murkowski, Chairman 
Murkowski.
    Good morning and welcome, Chief Tom Tidwell and Budget 
Director Tony Dixon. Thank you for joining us today as we 
discuss the fiscal year 2017 budget request for the Forest 
Service.
    Chief, thank you for your visit to New Mexico in February 
and for your chief's review of Forest Service programs in the 
Southwestern region. I understand that it went well. I know 
that you and your staff met with many New Mexicans on that trip 
from the land-grant heirs, the acequias, and community ditches, 
and I hope to talk to you about that a little bit later.
    New Mexico has a unique relationship with our national 
forests. The forests are literally our backyards. They are 
critical to our local economies, to water resources, and to our 
incredibly diverse wildlife. Our forests sustain recreation, 
fishing, hunting, hiking, horseback riding, and skiing, which, 
Chief, I know that is one of your passions.
    But the risk of Forest Service fire tempers those benefits. 
Last year, New Mexico escaped the brunt of fire season, but we 
cannot become complacent. Just yesterday, the National Weather 
Service issued a notice of extreme risk for fire weather 
conditions in northeast New Mexico due to strong, sustained 
winds, low humidity, warm temperatures, and an abundance of dry 
fuel on the ground. In the last 5 years we saw three of the 
largest fires ever recorded in the State. In 2011, 2012, and 
2013 fires burned a combined 592,000 acres.
    Before humans intervened, fires caused less severe damage. 
Forests were fire-adapted. Today, homes and communities are at 
risk from wildfire, and we have a catch-22. We spend billions 
of dollars on fighting fires but we do not invest enough 
resources in managing and restoring forests and preventing 
severe forest fires.
    The President's fiscal year 2017 budget for the Forest 
Service shines a light on this problem. This year, more than 
half of the discretionary budget request is devoted to wildland 
fire programs. This is unprecedented, and that does not even 
count the $864 million proposed for disaster funding.
    I know this is an issue that keeps you up at night, Chief, 
and it has occupied much of your time over the last several 
years. We came so close last year to passing a meaningful 
disaster cap adjustment.
    Senator Murkowski, thank you for your efforts last year for 
the provisions you proposed in the Senate bill and your work 
during our conference negotiations with the House. We made a 
valiant effort then, and I hope we can find common ground on 
this sensible proposal as we work on this year's bill.
    I am disappointed we did not get a disaster cap adjustment, 
but we did provide the additional resources. That should 
prevent the Forest Service and the Interior Department from 
having to borrow for firefighting this year.
    But I am still concerned that we had to pay for these 
resources with discretionary dollars since we could not access 
disaster funds. That translates to nearly $600 million in 
fiscal year 2016 alone. These are funds that could have been 
spent to reduce the risk of future wildfires, to restore 
restoration work on public lands, improve trails, or fund many 
other important activities. This seems to me to be a perfect 
example of why the disaster cap is so important. It is 
frustrating that we have worked for 3 years to pass the 
legislation but to have come up empty.
    Typically, in an opening statement like this, I would 
outline new initiatives or other major budget proposals, and we 
could talk about them at length during this hearing. But there 
are virtually none in this budget request. Wildland fire is 
literally taking all of the oxygen out of the room when it 
comes to the Forest Service budget, mission, and energy. The 
budget proposes an overall $29 million reduction in non-fire 
accounts. This speaks louder than words about the immediate 
need to address the fire budget. We will discuss this important 
issue in greater detail this morning.
    Thank you, Chief, for joining us this morning, and I look 
over to hearing the testimony of both of you.
    Thank you, Senator Murkowski.
    Senator Murkowski. Thank you, Senator Udall.
    With that, we will turn to the Chief of the United States 
Forest Service. Welcome, Chief Tidwell.

                 SUMMARY STATEMENT OF CHIEF TOM TIDWELL

            FISCAL YEAR 2017 FOREST SERVICE BUDGET PROPOSAL

    Mr. Tidwell. Madam Chair and Ranking Member Senator Udall, 
members of the subcommittee, once again, thank you for the 
opportunity to be here to discuss our 2017 budget request.
    As the chair pointed out, when you adjust our budget 
request, take out the additional FLAME funding that occurred in 
fiscal year 2016 and plus our proposal for fire suppression 
funding, our request is very similar to the 2016 budget level 
with a few changes. It represents some really tough choices we 
make to prioritize our limited funding.
    This request does allow us to continue to increase the pace 
and scale of our restoration efforts, allowing us to treat 
another 2.9 million acres to restore the resiliency, and the 
forest health on those acres. It also allows us to reduce 
sediment and improve wildlife habitat by eliminating 2,000 
miles of deferred road maintenance. It also allows us to 
improve fisheries on over 3,000 miles of streams and increase 
the overall function of 22 watersheds to provide those clean, 
abundant flows that our communities rely on. It also will yield 
3.2 billion board feet of timber.
    We do this by maintaining our 23 Collaborative Forest 
Landscape Restoration projects, allowing us to be able to 
expand the use of the Farm Bill authorities we received in 
2014, the stewardship contracting authority, the insect and 
disease designations, and the Good Neighbor Authority that we 
are moving foward with, getting more and more States on board 
every day. We will continue to increase this production.
    Our non-fire staffing has experienced a 39 percent 
reduction since 2001. However, this request also reduces the 
wildfire threat to firefighters and communities by treating 
another 1.6 million acres in the wildland-urban interface. In 
addition to that, we will treat another 400,000 acres outside 
of that to further reduce the threat of wildfire to our 
communities and our firefighters.
    Our State and Private programs are going to build on the 
concept of a landscape-scale restoration approach. We combine a 
portion of funding from our Forest Health accounts, our forest 
health cooperative lands, our Forest Stewardship, Urban and 
Community Forestry, to funding so that the States and State 
foresters can do a better job to address the forest health 
concerns they face.
    Our research program will continue to focus on dealing with 
the effectiveness of our restoration efforts, finding solutions 
to the insect and disease infestations, and to do what we can 
to stop the spread of invasives.
    We are also expanding our research program to be able to 
find new markets--expand current markets, but also find new 
markets for the wood that needs to be removed from our Nation's 
forests to be able to restore the forest health.
    Our budget also maintains the fiscal year 2016 funding 
levels for our Forest Legacy proposals and does request a $2 
million increase for Land and Water Conservation Funds. Once 
again, these projects are focused on maintaining and acquiring 
public access, reducing management costs, and keeping working 
landscapes working.
    The budget request also provides for the level of fire 
suppression resources needed to protect not only the national 
forests, but to provide support for the States and our local 
firefighters. We will have the adequate number of large 
airtankers this year. We will have the helicopters, and the 
Hotshot Crews that we need to be able to continue to provide 
that support when we work in conjunction with our States and 
local fires.
    Last year in 2016 you did provide additional funding for 
the FLAME account, but I think we all can remember with FLAME, 
that approach just does not work. I appreciate the leadership 
from this subcommittee to find a long-term, sustainable 
solution to address the cost of fire.
    As we all know, the solution needs to stop this disruptive 
practice of transferring funds. We also need an alternative to 
the 10-year average. This is not working anymore. I believe 
that we need to accept that 1 to 2 percent of our fires just 
need to be recognized as natural disasters.
    From 2015 to 2017, our 10-year rolling average for fire 
suppression from 2015 to 2017 will go up another $237 million. 
This takes away really all of your discretion, as you have 
pointed out already, for you to be able to address the needs of 
the American public for what they want and need from their 
national forests.
    The graphs and slides that I have shared with you earlier 
best express the consequences of the cost of wildland fire. In 
1995, 16 percent of our budget was consumed by our fire 
programs; in 2015, 56 percent; in 2025 our scientists project 
it will be 67 percent. Then the other slide that we have up 
there shows the impact that this has had on the agency.
    So outside of fire, our employees that are out there 
managing the national forest, maintaining our roads, 
maintaining recreation, providing that service, has gone down 
39 percent. Where I am very, very pleased with the amount of 
work that we are getting done on the ground today is very 
similar to what we were producing when we had 39 percent more 
employees, we are at the breaking point.
    This cost of fire suppression, we are doing everything we 
can to be able to manage those costs, but as there are more and 
more homes in the wildland-urban interface, it continues to 
drive up our costs. As our fire seasons are longer, hotter, and 
dryer, we are going to continue to have to deal with severe 
fire seasons. We are making progress with the hazardous fuels 
work that we are doing. We are making progress in increasing 
the health of our forests.
    I really appreciate the support of this subcommittee, and I 
look forward to answering your questions.
    [The statement follows:]
                   Prepared Statement of Tom Tidwell
    Madam Chairman and members of the subcommittee, thank you for 
inviting me here today to testify on the President's fiscal year 2017 
budget request for the Forest Service. I appreciate the support this 
subcommittee has shown for the Forest Service in the past. I look 
forward to continuing to work together with members of the subcommittee 
to ensure that stewardship of our Nation's forests and grasslands 
continues to meet the desires and expectations of the American people. 
I am confident that this budget will allow the Forest Service to meet 
our mutual goals while demonstrating fiscal restraint, efficiency, and 
cost-effective spending.
                     budget request and focus areas
    The President's proposed overall budget for discretionary funding 
for the Forest Service in fiscal year 2017 is $4.9 billion. That is 
$787 million less than the fiscal year 2016 enacted level and reflects 
strategic investments to reduce wildfire threats to communities and 
maintain forest restoration investments. The fiscal year 2017 
President's budget for the Forest Service focuses on three strategic 
goals, as identified in our Strategic Plan for fiscal year 2015-2020: 
\1\ (1) sustaining our Nation's forests and grasslands; (2) delivering 
benefits to the public; and (3) applying knowledge globally. Below, we 
outline how our budget for fiscal year 2017 will fund programs 
corresponding to each strategic goal.
---------------------------------------------------------------------------
    \1\ U.S. Forest Service Strategic Plan 2015-2020: www.fs.fed.us/
strategicplan.
---------------------------------------------------------------------------
Strategic Goal 1--Sustaining Our Nation's Forests and Grasslands
    The Forest Service responds to the many stressors affecting our 
landscapes and watersheds by sustaining and restoring healthy, forests 
and grasslands. By restoration, we mean restoring the functions and 
processes characteristic of healthier, more resistant, more resilient 
ecosystems, even if they are not exactly the same ecosystems as before. 
Our goal is to protect and restore the ability of America's forests and 
grasslands to deliver all the social, economic, and ecological values 
and benefits that Americans want and need, both now and for generations 
to come.
    The fiscal year 2017 President's budget for the Forest Service will 
fund the treatments and infrastructure needed to protect and restore 
the most critical landscapes.\1\ Our goal is to sustain and restore 
ecosystems that are capable of (1) furnishing clean and abundant 
drinking water; (2) resisting damage from fire, drought, floods, and 
insects and diseases; and (3) maintaining a strong productive capacity, 
thereby supporting economic opportunities for rural communities. To 
meet our goal, the fiscal year 2017 President's budget makes key 
investments in the following program areas:

  --Collaborative Forest Landscape Restoration Program ($40 million, 
        the same level as enacted for fiscal year 2016)--to continue 
        the 23 existing projects, which reduce the risk of catastrophic 
        wildfires in high-priority, high-risk areas; improve water 
        quality and quantity; increase carbon sequestration; and build 
        on innovative implementation and monitoring work with our 
        partners.
  --Suppression ($873.9 million, an increase of $62.9 million above the 
        fiscal year 2016 enacted level)--this amount represents 70 
        percent of the 10-year average costs for fire suppression, 
        currently calculated at $1.248 billion. The proposed cap 
        adjustment would cover the remaining 30 percent of the 10-year 
        average suppression costs as well as any costs currently funded 
        through fire transfers. For fiscal year 2017, the proposed cap 
        adjustment is $864 million.
  --Hazardous Fuels ($384.1 million, an increase of $9.1 million above 
        the fiscal year 2016 enacted level)--focusing on fuels 
        treatments in the wildland/urban interface to reduce the risk 
        of catastrophic fire on 1.8 million acres.
  --Land Acquisition Program ($65.7 million in discretionary funding, 
        $2.2 million above the fiscal year 2016 enacted level, and 
        $62.3 million in mandatory funding) to consolidate fragmented 
        lands within National Forest System borders and specially 
        designated areas to support effective land and watershed 
        management. The mandatory funds are part of the President's 
        proposal for Land and Water Conservation Fund reauthorization, 
        which calls for full mandatory funding starting in fiscal year 
        2018.
  --Forest Legacy Program ($62.3 million in discretionary funding, the 
        same as the fiscal year 2016 enacted level and $37.7 million in 
        mandatory funding) to focus on preventing the conversion of 
        private forests to other land uses and parcelization of 
        ownership and conversion of private forests to other land uses. 
        The Forest Legacy Program is a key component of the President's 
        America's Great Outdoors Initiative to conserve critical 
        landscapes and reconnect Americans to the outdoors through 
        reauthorizing the Land and Water Conservation Fund, with full 
        mandatory funding starting in fiscal year 2018.
  --Forest Products ($359.8 million, the same as the fiscal year 2016 
        enacted level) to accelerate the pace of restoration and 
        continue to work to create healthy landscapes. We anticipate 
        the sale of 3.2 billion board feet of timber with this funding 
        level.
Strategic Goal 2--Deliver Benefits to the Public
    The fiscal year 2017 President's budget will help the Forest 
Service with our goal to build thriving communities by helping ensure 
abundant clean water, jobs and flourishing local economies, and 
opportunities to connect to the outdoors. To meet our goal, the fiscal 
year 2017 President's budget makes key investments in the following 
program areas:

  --Landscape Scale Restoration ($23.5 million, an increase of $9.5 
        million above the fiscal year 2016 enacted level)--this 
        increase will fund about 20 more innovative, cross-boundary 
        projects that target high-priority areas identified in the 
        States' forest action plans. This continued investment in 
        cross-boundary, landscape-scale projects on State and private 
        lands will spur innovation, bring partners to the table, 
        support climate change mitigation and adaptation, and allow the 
        agency to leverage partner contributions. This investment will 
        sustain and restore forest health across large landscapes, 
        assist urban communities in protecting their forests, and 
        increase the number of cross-boundary projects.
  --Recreation, Heritage, and Wilderness ($264 million, an increase of 
        $2.2 million above the fiscal year 2016 enacted level). This 
        increase will modernize our recreation special uses program, 
        expand access to the National Forest System, and increase the 
        capacity of our community service and volunteer programs.
  --Law Enforcement & Investigations ($131.6 million, an increase of $5 
        million above the fiscal year 2016 enacted level). The funds 
        will support intensive operations at marijuana plantations on 
        the national forests and a comprehensive eradication, 
        dismantling, and reclamation strategy. The additional resources 
        will pay for removing infrastructure, trash, debris, and 
        hazardous materials (such as rodenticides and herbicides) at 
        the plantations and for reclaiming old marijuana sites.
  --Facilities ($71.6 million, a slight increase from the fiscal year 
        2016 enacted level) to maintain our developed recreation sites 
        and our fire, administrative, and other facilities.
  --Secure Rural Schools (SRS)--the administration proposes 
        reauthorization of the act. SRS is an important tool to 
        strengthen economic opportunities for local communities.
Strategic Goal 3--Apply Knowledge Globally
    The Forest Service has a long record of land management success, 
even though we work in complex and changing environments. We attribute 
our success in part to our world-class expertise in research and 
development; our capacity to develop new technologies; our innovation 
in forest products; our ability to conduct resource assessments; and 
our vast collection of geospatial information, inventory data, and 
monitoring information.
    Through intellectual inquiry and knowledge transfer, the Forest 
Service will continue offering land managers and others better 
information, applications, and tools for natural resource management. 
By improving our fundamental understanding of forests and grasslands, 
we will make better decisions and better achieve our goals of 
sustaining the Nation's forests and grasslands and delivering benefits 
to the people we serve.
    The fiscal year 2017 President's budget for the Forest Service will 
fund the research and development needed to sustain America's forests 
and grasslands and to deliver benefits to people. From on-the-ground 
natural resource management to long-term strategic policy development, 
all of our efforts to sustain forests and grasslands and to deliver 
benefits to people depend on new knowledge, information, and 
applications.
    To meet our goal, the fiscal year 2017 President's budget makes key 
investments in the following program areas:

  --Forest Inventory and Analysis ($77 million, an increase of $2 
        million from the fiscal year 2016 enacted level) to continue to 
        implement the annualized inventory program in all 50 States 
        (including interior Alaska), the affiliated Pacific islands, 
        Puerto Rico, and the U.S. Virgin Islands.
  --Land Management Planning, Assessment, and Monitoring ($183.9 
        million, a slight decrease from the fiscal year 2016 enacted 
        level). Through implementing the 2012 Planning Rule, we will 
        achieve efficiencies in agency assessment and monitoring 
        activities. The 2012 planning rule promotes a collaborative 
        science-based approach for planning, monitoring, and conducting 
        assessments.
  --International Forestry ($8 million, the same as the fiscal year 
        2016 enacted level). These funds will support preventing 
        illegal logging internationally, protecting U.S. forests from 
        invasive species, supporting international policy discussions 
        on climate change and the role of forests and grasslands in 
        greenhouse gas mitigation, and bringing innovative technology 
        developments to the United States.

    In connection with the fiscal year 2017 President's budget, we 
propose several key legislative changes to improve our effectiveness in 
delivering programs and services:

  --Fire Suppression Cap Adjustment.--We propose a budget cap 
        adjustment to fund suppression costs for large and complex 
        fires. Suppression would be funded at a level that covers 98 
        percent of the fires we fight, or 70 percent of our 10-year 
        average suppression costs. Remaining fire costs would be funded 
        through an ``off-budget'' fire suppression cap adjustment. Off-
        budget funding would follow from Secretarial declaration of 
        need.
  --Collaborative Forest Landscape Restoration Program.--We propose 
        increasing the authorized funding level for this successful 
        program from $40 million to $80 million which would fund up to 
        10 additional projects. The legislative proposal also extends 
        the end date of the authority to 2026 to allow for the full 
        implementation of additional projects should the Forest Service 
        receive an increased appropriation.
  --Federal Lands Recreation Enhancement Act.--We propose a 1 year 
        extension of the Federal Lands Recreation Enhancement Act. 
        Under the Act, 95 percent of the recreation fees collected on a 
        national forest or grassland are retained at the unit where 
        collected, to be reinvested in recreation sites and services. 
        This is an interagency proposal together with the Department of 
        the Interior. The current act expires on September 30, 2017.
  --Small Tracts Act Conveyance Authority.--We propose establishing 
        additional categories of NFS land which the Secretary of 
        Agriculture is authorized to sell, interchange or exchange, if 
        in the public interest. By tying to the existing Small Tracts 
        Act, the Forest Service will be better equipped to resolve 
        landownership and management challenges, save limited 
        resources, address community needs, and to move appropriate 
        lands into private ownership. It would also minimally increase 
        the maximum value of the land that could be conveyed to better 
        align with current land values.
  --Land and Water Conservation Fund.--The administration proposes 
        permanent authorization for annual mandatory funding, without 
        further appropriation or fiscal year limitation for the 
        Departments of the Interior and Agriculture Land and Water 
        Conservation Fund programs beginning in fiscal year 2018. 
        Starting in fiscal year 2018, $900 million annually in 
        mandatory funds would become available. In fiscal year 2017, 
        our budget proposes $900 million in total Land and Water 
        Conservation Fund funding, comprising $425 million in mandatory 
        and $475 million in discretionary funds. Proposed language will 
        be transmitted to Congress shortly.
  --Secure Rural Schools and Community Self-Determination Act.--We 
        support Congress reauthorizing the Secure Rural Schools and 
        Community Self-Determination Act of 2000 making payments 
        through mandatory funding. The funding for extending the act 
        through 2020 is included in our Budget Justification, and we 
        look forward to working with the Committees to develop the 
        legislative proposal.
  --Extension of Grazing Permits.--We propose that the terms and 
        conditions of section 325 of Public Law 108-108 (117 Stat. 
        1307), which regard grazing permits issued by the Forest 
        Service on any lands not subject to administration under 
        section 402 of the Federal Lands Policy and Management Act (43 
        U.S.C. 1752), shall remain in effect for fiscal year 2017. This 
        would address recent amendments to section 402 of the Federal 
        Land Policy and Management Act and public concerns that the 
        amendments do not apply to grazing permits issued by the Forest 
        Service on the national grasslands and on eastern national 
        forests.
  --Direct-Hire Authority.--We propose Direct-Hire Authority for 
        resource assistant interns who have successfully completed the 
        new Resource Assistant Program. The program is designed to 
        attract recent graduates of institutions of higher education, 
        with particular emphasis on women and on graduates from 
        historically Black, Hispanic, and Native American schools or 
        other schools with diverse student populations. Direct-Hire 
        Authority will give us more flexibility in recruiting 
        successful graduates of the program into our workforce.
  --Grazing Administrative Processing Fees.--The budget includes 
        appropriations language for a 3-year pilot project to allow the 
        Forest Service to recover some of the costs of issuing grazing 
        permits/leases on Forest Service lands. The Forest Service 
        would charge a fee of $2.50 per Animal Unit Month, which would 
        be collected along with current grazing fees. The fee will 
        assist the Forest Service in processing pending applications 
        for grazing permit renewals. During the period of the pilot, 
        the Forest Service would work through the process of 
        promulgating regulations for the continuation of the grazing 
        administrative fee as a cost recovery fee after the pilot 
        expires. The fees will be credited to the Management of Lands 
        and Resources appropriation. The estimate for 2017 is 
        $15,000,000.
                             future outlook
    The Forest Service serves the American people by ensuring that 
their forests and grasslands deliver a full range of values and 
benefits, including hundreds of thousands of jobs and annual 
contributions to the economy worth many times more than our entire 
annual discretionary budget.
    Now we are facing some of the greatest challenges in our history. 
Invasive species, climate change effects, regional drought and 
watershed degradation, fuel buildups and severe wildfires, habitat 
fragmentation and loss of open space, and devastating outbreaks of 
insects and disease all threaten the ability of America's forests and 
grasslands to continue delivering the ecosystem services that Americans 
want and need. In response, the Forest Service is increasing the pace 
and scale of ecological restoration. We are working to create healthy, 
resilient forest and grassland ecosystems capable of sustaining and 
delivering clean air and water, habitat for wildlife, opportunities for 
outdoor recreation, and many other benefits.
    Our budget request focuses on restoring resilient landscapes, 
building thriving communities, and safely managing wildland fire while 
providing an effective emergency response. Our requested budget will 
enable us to address the growing extent and magnitude of our management 
challenges and to furnish the mix of values and benefits that the 
public expects from the national forests and grasslands. Our budget 
priorities highlight the need to strengthen cooperation, collaboration, 
and public/private partnerships that leverage our investments to reach 
shared goals. Through strategic partnerships, we can accomplish more 
work while also yielding more benefits for all Americans, for the sake 
of all generations to come.
    This concludes my testimony, Madam Chairman. I would be happy to 
answer any questions that you or the subcommittee members have for me.

    Senator Murkowski. Thank you, Chief.
    Mr. Dixon, were you prepared to make comments this morning 
or just be here for answers, sir?
    Mr. Dixon. Be here to assist the Chief.
    Senator Murkowski. All right, great. Thank you.
    Chief, let me begin. As you know, not only do I have the 
privilege and pleasure of chairing this Interior Appropriations 
Subcommittee that has the oversight of Forest Service budget, I 
serve on the authorizing committee, the Energy Committee. So I 
am in a somewhat unique position as both being an authorizer 
and appropriator. I know that Senator Daines is in that same 
position as well. So I obviously, take a very, very keen 
interest in making sure that we are doing right when it comes 
to Forest Service, we are doing right when it comes to dealing 
with forest management issues throughout the country and how we 
deal with the ever-increasing threat of wildfire.
    We have already had at least two wildfires up in the State 
of Alaska, probably had our earliest fire ever. I think it was 
late February. And it has been a very, very light and warm 
winter with not a lot of snowfall, so the real concern for us 
is what is on deck this year. So there is great interest in 
working through these longer-term solutions rather than just 
kind of the band aid approach that we have taken.
    And the whole discussion of how we deal with fire borrowing 
is one that I take very seriously, and I want to make sure we 
get it right. I do not want to do something just because we 
have a vehicle in front of us right now and so let us slap 
something together and hope we get it right. This is too 
important.
    And so I appreciate the back-and-forth that many have 
engaged in in trying to identify how we deal with not only the 
wildfire suppression issues, fire borrowing, and what that 
means then for forest management reforms, which I feel very, 
very strongly about.
    And I mentioned in my opening that I am looking at how the 
budget lays out the priorities, and it just does not seem to 
fit with the discussion that we have had when it comes to the 
wildfire suppression. The budget proposal proposes to take 30 
percent of the cost of wildfire suppression off budget so 
ostensibly you can invest more in forest management and 
restoration activities, as well as deal with the increasing 
cost of fighting fires.
    But, again, I am having a tough time seeing where you have 
actually invested these savings from this proposed cap 
adjustment, aside from the increase in fire suppression 
because, as I look at it, you have got a proposed decrease in 
national forest management, only a very small increase for 
hazardous fuel reductions.
    You have indicated that the Land and Water Conservation 
Fund (LWCF) does go up. I look at that and I say, okay, you are 
investing in buying more land, and you are not doing what you 
have said you wanted to do with this discretionary funding 
source, which happens when you are able to take this off 
budget.
    So tell me how you got to the place where you are in this 
proposal that the Forest Service would invest less money in 
forest management.

                           FOREST MANAGEMENT

    Mr. Tidwell. Well, Senator, I share your concerns. I think 
back to when I have been up here over the last couple of years 
when we first started this proposal. We looked at our budget 
request at that time, and when you factored in the increase of 
cost of suppression plus the additional request we were asking 
for on hazardous fuels and in forest products, you were close 
to where we would see the difference if we would move forward 
with a different way to fund fire.
    What has happened over the last 2 years is that the cost of 
fire suppression keeps going up. It has basically eliminated 
any potential savings that we had 2 years ago when we started 
this discussion.
    Now, our request does maintain the increase you provided us 
in forest products last year. I appreciate that. It also 
maintains the increase in hazardous fuels that you provided 
over the last couple of years. So that has helped us to move 
forward to be able to create more acres. You will see this year 
with our increase in production when it comes to timber harvest 
to go to 3.2 billion, that does reflect the increase you 
provided us in 2016.
    So, we have been able to maintain those slight increases, 
but the rest of the discretion that was available when we first 
started this discussion has gone into the cost of fire 
suppression.
    Senator Murkowski. But then why would you--recognizing 
that--because I do not disagree that the cost of suppression is 
growing, but then why would you take those discretionary 
dollars and put more towards land acquisition? Why would you 
not put more towards forest management?
    And the example that I will use for you, we had the funny 
River fire in Alaska back in 2014. In the wake of that fire, we 
had 11.3 million acres that were identified as high priority 
for fuels reduction. Again, folks at home are real concerned 
about what may be coming with this fire season.
    So you have got areas that have been identified for fuels 
reduction as high priority, but have we been able to do 
anything to make sure that on those 11.3 million acres we have 
been doing something? Because I am not seeing that the dollars 
are going towards that level of management.
    Mr. Tidwell. Well, Senator, year after year we keep 
increasing the number of acres that we are treating to restore 
forest health, along with reducing hazardous fuels. Yes, there 
is a backlog out there that I have been very clear about.
    Senator Murkowski. So why not take some of that money that 
you are allocating towards LWCF and put it towards that?

                LAND AND WATER CONSERVATION FUND (LWCF)

    Mr. Tidwell. Well, LWCF is another one of our programs that 
has tremendous public support. As I try to put together a 
proposal each year with basically a constrained budget, I 
admit, it gets very difficult to make those choices. So when we 
look at the LWCF proposal, it is $2 million more than what you 
provided us last year, but those are based on just trying to 
prioritize the best use.
    When I look at some of these LWCF proposals, they do help 
reduce our administrative costs and they do lock in that public 
access that I see year after year. There are more private 
landowners that for a variety of reasons, probably very sound 
reasons, that are no longer allowing the public to cross their 
lands to get to the national forest and grasslands, so that is 
also a pressing need.
    So I share your concern. I wish I could be up here asking 
for a significant increase in forest products, a significant 
increase in watershed, a significant increase in hazardous 
fuels, but with the budget constraint that we are working 
under, this is the proposal that I have.
    Senator Murkowski. Well, and I understand that, Chief, my 
time is expired, but again, you have to understand the 
frustration of so many of us that at a time when we cannot take 
care of the lands that we have, we are going to spend more 
dollars to bring more into that account.
    And, you know, you are saying that LWCF is very popular, it 
is, but it is also quite significant to make sure that people 
feel that we have attended to our forests in a way that help 
those that are in that urban wildfire space, that we protect 
our forests in a way that makes sense for all.
    So this is an argument I have with Park Service, it is an 
argument that I have with you, and until we are better 
custodians of the lands that we already have, it sure makes it 
tough when you see increases in the land acquisition side at 
the same time we see decreases in the management side.
    I am going to turn to my colleague.
    Senator Udall. Senator Tester can go ahead.
    Senator Murkowski. Okay. As always, Senator Udall is very 
courteous to his colleagues who have other places to go, so we 
are going to turn to Senator Tester.
    Senator Tester. Thank you, Madam Chair, and thank you, 
Senator Udall, for the courtesy.
    I just want to say thanks for being here, Chief. And with 
no offense to the chairman, thank you for funding the Land and 
Water Conservation Fund.
    And I am going to just tell you that the reason this money 
is so important--and remember that this money was supposed to 
come from offshore drilling and it was supposed to be funded at 
$900 million 30 years ago, 40 years ago maybe, there are a lot 
of reasons for it.
    Plum Creek, now Weyerhaeuser, is divesting a lot of their 
property, a lot of this is checkerboard property, and it will 
help with management. But maybe the most important thing that I 
take back to the taxpayers in Montana is that outdoor 
recreation is a $6 billion economy in Montana alone, $6 billion 
in Montana alone. Now, the tax rate at the high-end is 35 
percent. If we take it and tax that $6 billion a 20 percent, 
every year it would pay for that $128 million. So I think that 
it is very important for our economy as we move forward.
    And lastly, I would just say many of these landscapes are 
not going to be around in 10 or 15 years. You are exactly 
right, there is big money on the coast that will buy up this 
land that Weyerhaeuser has now, and quite frankly, they will 
put chains across it, and the outdoor recreation economy that 
we are so proud of today will not be around in 10 years.
    So thank you for that. I think it is visionary. And I think 
if we just stayed with what we were doing, taken the offshore 
leasing and putting it to Land and Water Conservation Fund, we 
would not even be having this debate because it would be funded 
at $900 million.
    I want to talk a little about the same issue about forest 
management. Your firefighting costs in 1995 were 16 percent. 
Today, it is 52 percent. It will be two-thirds of your budget 
by 2025. It has tripled over the last 30 years. What is driving 
it? Is it a lack of management that is driving it? What is 
driving that?

                           FOREST MANAGEMENT

    Mr. Tidwell. What is driving it is just the reality of the 
cost of wildland fire suppression increasing. It is being 
driven by--primarily the homes would drive a lot of the cost 
for us to use the resources to be able to keep that fire away 
from our communities, away from individual homes, but it is 
also--our fire seasons today are running 60 to 80 days longer 
than what they were earlier in my career. It takes more 
resources, and it is going to take more funding.
    Senator Tester. So let us talk about the wildland-urban 
interface (WUI) for a second, as long as you brought it up. 
What percentage of the WUI has been treated?

                        WILDLAND-URBAN INTERFACE

    Mr. Tidwell. Well, as I mentioned, we have been treating 
close to over 1.5 million acres of the wildland-urban interface 
every year, and so we are making steady progress.
    Senator Tester. I got you. So what are the total acres----
    Mr. Tidwell. There is about 50 million acres that need to 
be treated.
    Senator Tester. Fifty million? And if you are doing 1.5 
million a year, where are you at now? Are you at 10 million, 
15, 20?
    Mr. Tidwell. We have them probably treating over 10 million 
now.
    Senator Tester. Okay. So you have got a ways to go.
    Mr. Tidwell. The problem with it, too, is it keeps the 
vegetation growing, so there is also maintenance that by the 
time we get through the first 50 million, we will need to be 
going back to continue to treat the acres.
    Senator Tester. Okay. Well, just as the chairman put out in 
Alaska, it has been warm and dry in Montana also. And that 
becomes an issue with the fire season and the management and 
all of that. And now that there are more houses put on the land 
that butts up against the forest, it does become a problem.
    I want to talk about trails for a second and recreation in 
general. Montana is going to receive a 30 percent cut in the 
trails budget over the next 3 years, 10 percent of your--I 
think more than any other State. What did we do wrong?

                         TRAILS AND RECREATION

    Mr. Tidwell. Senator, you did not do anything wrong.
    Senator Tester. Okay.
    Mr. Tidwell. What you are seeing is an attempt by my staff 
to be able to deal with the reduction of trails funding over 
the last few years at the same time with an increased demand 
and to be able to look at where is the highest priority for 
that work.
    When I hear this I think about my experiences in Montana. 
Those trails, every mile of those trails is just as important 
as any mile in California or Colorado, places where we have 
higher level of use, but it is still important. So what you are 
seeing is an effort for us to prioritize our limited resources.
    Senator Tester. I got you. Some of those regions actually 
got plussed up, not a lot but a little. The point--and I 
started out with talking about Land and Water Conservation 
Fund. The fact is that if we are going to continue to grow our 
outdoor economy, those trails are pretty damn important.
    Mr. Tidwell. Yes.
    Senator Tester. And we have a million people in Montana, 
but we have far more, far, far more than that that visit our 
State because we have access to our public lands. So I would 
ask that we take a look at that and try to figure out some way 
where we can be--I will not call it punitive but more fair. Let 
us put it that way.
    Mr. Tidwell. Senator, the staff is looking at that. When 
they see the consequences, they are taking a second look at it 
to see if we can moderate that.
    Senator Tester. Now----
    Mr. Tidwell. Until we fix the cost of wildland fire 
suppression, I am not going to have a real positive answer for 
you.
    Senator Tester. We will continue to work and try to get a 
bipartisan solution for that.
    One last thing, and I know what you are going to say. You 
are going to say you have to work within the budget, but part 
of the problem with timber sales right now is you have got to 
go through a National Environmental Policy Act (NEPA) process--
which I support by the way--and make sure it is done right. 
Public lands should be that way. Unfortunately, you have far 
fewer NEPA specialists than you have had in the past and a 
number of far fewer. It looks to me like there is no way we are 
going to get any timber sales out the door as long as you are 
looking at those kind of numbers on NEPA specialists.

             NATIONAL ENVIRONMENTAL POLICY ACT SPECIALISTS

    Mr. Tidwell. Well, Senator, you are correct on the impacts 
to our staff. On the other hand, I am so appreciative of what 
our employees are able to do. When I look at the level of 
production we are doing today with 39 percent fewer employees, 
they have done a good job to be able to look at much larger 
landscapes, working with our communities, but we are probably 
maxed out to the point that it is difficult to ask them to do 
much more.
    We have the opportunity with the 2014 Farm Bill authorities 
to actually get more work done, and to be able to work with the 
States.
    Senator Tester. Right on. Yes.
    Mr. Tidwell. We have got to have at least enough Forest 
Service capacity there to meet and match our partners.
    Senator Tester. Right. Well, thank you, Chief.
    Thank you, Madam Chair. Thank you, Senator Udall.
    Senator Murkowski. Senator Daines.
    Senator Daines. Thank you, Madam Chair, and Ranking Member 
Udall.
    Chief Tidwell, good to have you here again. I want to thank 
you for your commitment also to continue to work on ways to 
reduce obstructions to litigation in Montana, as well as what 
you do, I think, oftentimes around the country.
    I also share the concern echoed by Senator Tester about the 
trail budget reductions. I am an avid user myself. Perhaps many 
Senators in August are off traveling around the world. My wife 
and I enjoy using the trails in Montana in the backcountry, and 
I would ask you to take a new look at that. It is hard to find 
parking places anymore in a lot of the trailheads in Montana. 
We have been discovered. And you continue to maintain what we 
have well, but thanks for looking at that.
    Regarding the Farm Bill, as you are aware, we have 
identified nearly 5 million acres in Montana that were 
designated as insect and disease areas with the 2014 Farm Bill. 
For fiscal year 2015 and 2016, my understanding is we currently 
have nine Farm Bill projects in process in Montana. That covers 
about 6,200 acres. I am also told there are about 25 additional 
Farm Bill-related projects slated over the next 3 years.
    I also want to emphasize and reinforce my appreciation to 
the Forest Service strike teams that have been in Montana who 
are working to utilize the Farm Bill authorities. This is a 
step in the right direction.
    Here is the challenge. We have identified in Montana about 
5 million acres with dead or dying trees, and that is something 
we have been communicating to Montanans back home is that if 
these are dead and dying trees, 5 million acres, you take 6,200 
acres of projects that have been identified so far, do the 
quick math, it is about .1 percent is currently on the slate to 
address dead and dying trees, which of course present a 
wildfire risk.
    Question one is in the conference report to the fiscal year 
2016 spending bill, Congress directed Forest Service to spend 
at least $5.4 million to carry out the 2014 Farm Bill, but I am 
concerned the agency has not followed this congressional 
direction. Do you know how much funding is in the fiscal year 
2016 for the Forest Service? What have they dedicated to 
carrying out the Farm Bill Authority?

                          FARM BILL AUTHORITY

    Mr. Tidwell. Well, Senator, we are looking at 34 projects 
under the Farm Bill authorities. We will spend over $10 million 
for those 34 projects. So, we will actually exceed what you 
asked us to do. I expect that even by the end of the year the 
number of projects will increase, because our employees are 
getting more comfortable using the authorities. There are more 
States that are entering into the Good Neighbor Authority 
agreements with us and being able to bring their resources to 
the table just like Montana is doing. So I expect that by the 
end of the year that will even increase.
    Senator Daines. So I am glad to hear you are well above the 
$5 million. That is good news. And again, we look at the 
overall acreage treated still just about around the area, we 
have got a long ways to go, so I am going to continue to invest 
in this. We can still recover dead and dying trees until they 
become unsalvageable.
    Question, though, have you directed your personnel in your 
DC office with a mission to ensure that regional offices are 
maximizing the utilization of these authorities?
    Mr. Tidwell. We are having those ongoing discussions to be 
able to look at every authority we have, the flexibility we 
have to be able to get the work done on the ground. So we are 
actually revisiting our appraisal system to make sure that we 
are using the maximum flexibility to be able to get the work 
accomplished.
    We are also looking at the potential to be able to look at 
how we can, for lack of a better term, subsidize or reflect on 
the appraisal longer haul distances to be able to get the wood 
to the mills. Our focus is on getting the work done, and we are 
continuing to look at everything we have available for us to 
get that done.
    Senator Daines. Do you know about how many folks--I 
appreciate the leadership there. I think it is all about focus, 
waking up every morning and driving this--how many people in DC 
are focused on this, would you say?

                                SAWMILLS

    Mr. Tidwell. Well, I can tell you our forest management 
staff, the majority of them, are focused, but there are just a 
few. Once again, when I look at where we are today, we have 49 
percent fewer foresters today than what we had when we were 
producing the same amount of timber that we are projecting to 
do this year. We are fortunate in that your region we have 
probably one of the best people to really understand our 
appraisal system to be able to look at that.
    So I am optimistic that we are going to be able to maximize 
our flexibility to do everything we can to get the work done, 
but even more importantly, keep the industry alive.
    Senator Daines. Yes, well that is what we are. Yes, we are 
down to just a handful of sawmills left in Montana. We used to 
have 30 when I was growing up there. The endangered species is 
probably sawmills in Montana. We could probably add them to the 
list.
    Regarding tribal forest protection--I want to shift gears--
Chief Tidwell, as you know, the Tribal Forest Protection Act of 
2004 authorized the Forest Service to prioritize tribal 
forestry projects on Forest Service and the Bureau of Land 
Management (BLM) land to protect these neighboring Indian trust 
resources from wildfire, disease, and threats originating on 
nearby Federal lands. Unfortunately, in more than a decade only 
six projects have been carried out in 10 years.
    Last year, the House passed a forestry bill, H.R. 2647. It 
included a provision to give tribes more certainty in 
exercising its authorities. Question: Do you agree that 
provisions such as those in that House-passed bill are needed 
to ensure that more work near tribal lands gets done?

                      TRIBAL FOREST PROTECTION ACT

    Mr. Tidwell. So the provisions that we are addressing to 
help support the tribes by helping us to be able to do a better 
job working with them. Yes, we feel that those are helpful. We 
have also invested some efforts this past year to be able to 
work with the tribes. We are going to accomplish another six 
projects this year, which will basically double what we have 
been able to accomplish.
    Senator Daines. It is a better trend line. Six in 10 years. 
And to get six more this year, that is good.
    Last question, and then I am out of time. We have seen some 
success with the Tribal Forest Protection Act (TFPA) in 
Montana, as with the Confederated Salish and Kootenai Tribes 
(CSKT's) McGinnis/Cabin project. Overall, the promise of TFPA 
remains unfulfilled, however.
    In an Indian Affairs Committee this last month, I secured 
the commitment of the Department of Interior's acting assistant 
secretary for Indian Affairs Larry Roberts to work with us and 
with the U.S. Department of Agriculture (USDA) to address 
challenges in tribal forestry.
    My question, Chief Tidwell, can I get your commitment to 
work with me and with the Bureau of Indian Affairs (BIA) to do 
the same?

                            TRIBAL FORESTRY

    Mr. Tidwell. Yes, you have that commitment from myself and 
from our staff. It was when I was a regional forester there in 
the northern region when we did the first project--and so as 
you have shared we have only done six in 10 years.
    Senator Daines. You have firsthand experience?
    Mr. Tidwell. We had the first, but now we need to be able 
to move this in a very different direction.
    Senator Daines. All right. I look forward to working with 
you, Chief Tidwell. Thank you.
    Senator Murkowski. Thank you, Senator.
    Senator Udall.
    Senator Udall. Thank you, Madam Chair.
    I, Chief Tidwell, would like to focus on the fire borrowing 
a little bit. I understand that your agency's most recent 
forecast predicts a less-active fire season this year. That 
means that the agency is expected to spend between $885 million 
and $1.7 billion on firefighting activities with a median 
forecast of $1.28 billion.
    As you know, the subcommittee provided $1.62 billion to 
fight fires this year, so unless the fire season really 
outpaces your predictions, you should have sufficient funding 
to cover your firefighting needs, and you should be able to do 
that without borrowing from other programs.
    However, if you need more than that, we also continued 
language from previous years which allows transfers between the 
Forest Service and the Interior Department, and of course we 
included the longstanding authority allowing you to transfer 
funds from non-fire accounts.
    That allows you to keep fighting a fire if appropriated 
funds run out. This did occur during the 2015 fire season, and 
Congress repaid the $700 million in emergency funding. We did 
that almost immediately so that you could repay your non-fire 
accounts.
    Secretary Vilsack has been very public in his 
disappointment about failing to pass the disaster cap 
adjustment. He has stated for the record that he will not 
authorize transfers for fire suppression. He said that most 
recently at the agriculture appropriations hearing last month. 
That essentially bars the normal practice of fire borrowing, as 
you know.
    As I said in my opening statement, I share the Secretary's 
frustration that we do not have a cap adjustment in law yet, 
and I hope this is the year that we will be able to enact a fix 
for the firefighting budget. But until that happens, we must be 
clear. We expect the Forest Service to use all of its existing 
legal authorities to fight catastrophic wildfires.
    Chief Tidwell, can you assure us that when the time comes 
the agency will use all available tools to protect the public 
and our natural resources from wildfires?

                       SUPPRESSION CAP ADJUSTMENT

    Mr. Tidwell. Senator, we will continue to carry out our 
responsibilities on the ground to be able to suppress the fires 
and protect the communities no matter what the budget.
    I share the Secretary's urgency, and as I shared with the 
chair earlier, the longer this issue goes on, the less and less 
discretion you have to be able to solve it, to make a 
difference, for us to be proactive. I appreciate the chair 
understanding the significance of this and that we definitely 
do need to get it right.
    But that being said, there is some urgency, and so we will 
continue to work with the subcommittee. I am optimistic that so 
far with the projections that we should be okay with the level 
of the additional funding you provided. But as the season 
progresses, we definitely will have ongoing discussions 
informing the subcommittee about where we are with the rate of 
expenditures so hopefully we can avoid that situation of 
running out of money for fire suppression this year.
    Senator Udall. Thank you, Chief, for that answer. One of 
the Forest Service's most important and visible firefighting 
assets is the air tanker fleet, and over the last several 
years, both you and the Congress have worked to expand and 
upgrade your air tanker fleet to address the growing threat of 
wildfires. The members of this subcommittee have been very 
vocal about this for years, as you know.
    I understand that the agency will field the largest air 
tanker fleet in 15 years this season. This is a good step 
forward, but more work must be done to ensure a modern and 
efficient fleet. You now have a significant fleet of contracted 
aircraft, but I would like to discuss two opportunities that 
Congress has given you to acquire government-owned aircraft.
    In the fiscal year 2014 Defense Authorization bill, this 
authorized the transfer of seven C-130H aircraft from the Coast 
Guard to the Forest Service. Chief Tidwell, do you have an 
update for us on the schedule for the transfer of the Coast 
Guard C-130H aircraft? Are there any funds in the fiscal year 
2017 budget associated with the delivery of the C-130Hs?

                               AIRTANKERS

    Mr. Tidwell. The status is we used one of the planes last 
year that had a Modular Airborne Fire Fighting System (MAFFS) 
unit put on board. That plane goes back to have an internal 
retardant tank installed on it. So this coming year we will 
have one of the C-130Hs in 2017 and in 2018 we will have four, 
and by fiscal year 2019 we will have all seven of those with 
the installed internal tank.
    The reason the planes are being retrofitted is because they 
are having the new wing boxes installed. The Air Force, who 
supervises the contract, will be installing the new wing boxes 
and the Forest Service will be installing the MAFFS. Following 
delivery of the planes, the Forest Service will replace the 
MAFFS with a more efficient Retardant Delivery System. We will 
have the full fleet of seven ready for use in fiscal year 2019.
    Senator Udall. Thank you. Thank you, Chief.
    Thank you, Madam Chair.
    Senator Murkowski. Senator Hoeven.
    Senator Hoeven. Thank you, Madam Chair.
    And, Chief, good to see you. Thanks for being here. Thanks 
for coming in to visit with me a couple weeks ago and for your 
visits to North Dakota. We appreciate it very much, coming out 
of working with our ranchers in the grasslands. It is very 
important. And you have been open and accessible, and we 
appreciate it.
    The first thing I want to ask you about is the carryover 
for grazing fee credits. Our ranchers can do more significant 
projects out on the grasslands and so forth if we are able to 
carry over those credits. So what do we need to do so that our 
grazers can carry over those fee credits and do more and better 
projects?

                          GRAZING FEE CREDITS

    Mr. Tidwell. Well, Senator, we have looked at our 
authorities, and I am going to need your help. I would like to 
work with your staff to be able to provide some language that 
would give us that flexibility in those cases where we need to 
actually carry over these grazing fee credits so that we can 
bank credits for a year or two to be able to take on a much 
bigger project, which is more efficient, more effective than 
trying to parcel out that same project over 3 years. So I would 
appreciate your support with us to be able to get that done.
    Senator Hoeven. And you agree that makes good sense, 
something we should do?
    Mr. Tidwell. Yes, I do. I think it makes very good sense, 
and we have examples of projects where if we could have one 
contract, one large contract, we get a better price versus 
doing three contracts over 3 years for the same amount of work. 
It is just a more efficient way. We need that flexibility.
    Senator Hoeven. Thank you. I know our grazers would very 
much appreciate it, and it is a win both for the ranchers and 
for the environmental stewardship that you work to achieve.
    I found it interesting, you know, we talked about the 
different uses, fences, water development, land exchanges, 
watershed protection, and others. Here is what I thought was 
interesting. I do not know if you want to explain or not--I am 
not sure what it is--vegetative manipulation. Do you know what 
that is? I mean, we are just farmers and ranchers so I was not 
sure what vegetative manipulation was. You do not have to 
explain if you do not want, I just thought it was interesting.

                        VEGETATIVE MANIPULATION

    Mr. Tidwell. Well, no, it is a term that we use whether it 
is to deal sometimes with elimination of invasives, sometimes 
it is a term that can be used for thinning, and a term that can 
be used for eliminating brush by planting grass.
    Senator Hoeven. A broader term for farming and ranching 
practices is it----
    Mr. Tidwell. Yes.
    Senator Hoeven. Okay. I just want to make sure I know what 
is going on out there.
    Mr. Tidwell. A better term might be restoration.
    Senator Hoeven. Okay. Anyway, thank you on that issue, 
really appreciate it. Again, I think that is a good example of 
where you are trying to make things work and we appreciate it.
    Also, I was just out to see our grazers last week, and they 
had good comments about your people out there. They like 
working with them. So hopefully that message will go back to 
your men on the ground out there in the grasslands in western 
North Dakota and Montana. I have not met them yet, well, unless 
he was at one of our meetings, but they were saying they like 
working with them, so I want to express appreciation. That is 
very important, that relationship out there. I thank you for 
that.

                              RESTORATION

    Mr. Tidwell. Thank you for your support and efforts and 
time that you have invested in that to be able to help us move 
forward on some issues that have been there for a few years. So 
thank you very much.
    Senator Hoeven. Now, I do have a concern in the fiscal year 
2017 budget for the Forest Service. You are requesting a pilot 
project to allow the Forest Service to charge a new grazing 
application processing fee, which you estimate will generate 
$15 million. I know you know this, but this is a tough time in 
agriculture. Our farmers and ranchers are up against it. You 
know, the prices are not there. We are going through tough 
stretches. It is going to be a tough year in agriculture. I 
hope next year is better. So, you know, increased fees is a 
concern to me in terms of, you know, for our ranchers, 
particularly at this time.

                              GRAZING FEE

    Mr. Tidwell. Senator, I share those concerns. I mean, this 
proposal is an idea to be able to basically offset the impacts 
that have occurred to our budget over the years. To find 
another means for us to be able to move forward not only with 
the basic administration needs doing occur to ensure that our 
ranchers can continue to access their permits, but also to 
allow us to move forward on doing some more of the NEPA.
    But I understand the concerns and the impacts. I would much 
rather be up here asking for a budget request versus a fee 
increase, but it is the only option I have, and that is where 
it is coming from, just trying to find some way for us to be 
able to maintain the capacity so that we can be good partners 
with the ranchers.
    Senator Hoeven. Right. And I will try to work with our 
chairman and ranking member to see what we can do as far as 
making sure you have, you know, the resources to process the 
applications in a timely way, serve the needs of the grazers 
and the ranchers out there. But again, I am concerned about any 
fee increases at this point, particularly given the challenges 
in farm country right now.
    Again, thanks for your service.
    Senator Murkowski. Thank you, Senator Hoeven.
    We have been told that the vote has just started, so you 
will see members popping in and out, but just for members' 
information, we will be moving through this vote. We will not 
be taking a recess. So if you want to come back for a second 
round, know that we will do that.
    With that, we will turn to Senator Merkley.
    Senator Merkley. Thank you very much, Madam Chair.
    Chief Tidwell, you said the fire season is longer than 
before. Why is that?

                             CLIMATE CHANGE

    Mr. Tidwell. Climate change. Our weather is hotter and 
drier, and what we are seeing is it is warming up earlier in 
the spring and it stays warmer later into the falls. By Labor 
Day we were pretty much out of fire season, and now it goes way 
past Labor Day. You saw that in your State.
    Senator Merkley. Your projection to the year 2025 shows a 
steady upward climb. Is that based on climate change 
predictions of the dryness of the land and the amount of 
lightning strikes and so forth?
    Mr. Tidwell. Yes. The longer fire season is based on the 
hotter and drier weather, which is a big contributor to those 
increasing costs.
    Senator Merkley. Thank you. I want to turn to a mineral 
withdrawal request. There is a 2-year temporary mineral 
withdrawal on an area in southern Oregon that involves many 
tributaries to the north fork of the Smith River, which goes 
down into California. The U.S. Fish and Wildlife Service has 
said that mining activities are incompatible with the high 
resource values of this bioregion, and the proposed withdrawal 
has had overwhelming public support, two public hearings, 
30,000 support level, endorsements from a broad spectrum of 
cities, counties, tribes, businesses, conservation groups, 
scientists, so on and so forth.
    Currently, this is under consideration by the Department. 
Senator Wyden and I, along with Congressman DeFazio from Oregon 
and Congressman Huffman from California because of where the 
Smith River goes have encouraged the Department to complete its 
environmental assessment and to consider as an option a 20-year 
withdrawal.
    So I just wanted to re-accentuate the extreme importance of 
this because there is a nickel strip mine that is being 
proposed in these pristine, phenomenal, wild and scenic rivers 
of southern Oregon, and it would just be an absolute disaster.

                       MINERAL WITHDRAWAL REQUEST

    Mr. Tidwell. Well, Senator, we share your concerns with the 
area, and we are moving forward to complete the environmental 
analysis that would support a recommendation for a 5-year 
withdrawal. For us to stop the process now and go back out for 
public comment on a proposal for a 20-year withdrawal was going 
to provide a significant delay. So our hope is that we move 
forward with this, we can make our recommendation to the 
Secretary of Interior that would provide for 5 years for us to 
ideally get legislation passed to make this withdrawal 
permanent.
    Senator Merkley. Okay. That is the first I heard that that 
would create a delay. We do not want a delay. But if there is a 
way to include an alternative without that delay, and 
apparently there may not be, but that would be our hope.
    Let me turn to the Columbia Gorge. At the time the Columbia 
Gorge Scenic Area was set aside, there was an authorization for 
$10 million. This was a key part of the deal in which the 
communities agreed to curb their boundaries and not develop 
additional houses or spaces.
    And so the Columbia Gorge has been protected, and it is an 
incredible area. But they feel like the Federal Government did 
not honor the deal because they have received $8 million of the 
$10 million, but they could certainly use the other $2 million 
in economic development. And it kind of felt like that was 
minimal to begin with.
    Recently, the Department said that the original 
authorization has now expired but without any sort of 
underlying explanation of why. Rather than take time now, would 
you join with us in understanding why it is suddenly there is 
an expiration of that authorization?

                      COLUMBIA GEORGE SCENIC AREA

    Mr. Tidwell. Senator, we will look into that, but it is my 
understanding that the funding is still there, and if it is at 
the direction of Congress, we can move forward and fulfill that 
responsibility, and use that money. I will get with your staff 
as to what it would take for us to be able to go ahead and move 
forward.
    Senator Merkley. Great. Thank you. I want to express 
appreciation for the increase in funding for Collaborative 
Landscape Restoration. Oregon has some 25 collaboratives 
working in partnership with the Forest Service. It is in 
combination with--stewardship agreements have helped basically 
resolved the paralysis that has often haunted the ways of 
managing our forests. I think you have proposed $80 million for 
those collaboratives versus last year it was funded at $40 
million. And I appreciate the support expressed in the budget 
for that.

           COLLABORATIVE FOREST LANDSCAPE RESTORATION (CFLRP)

    Mr. Tidwell. Senator, thank you for the recognition of the 
success of that work. Our collaboratives not only in your State 
but throughout the country is really what is making a 
difference for us to be able to address these much larger-scale 
projects and to be able to move forward without the controversy 
and the conflict that we have had in the past.
    In fiscal year 2018, the Forest Service will request 
additional funding for CFLRP projects, we would appreciate your 
support to make that occur so that we can know that it is 
potentially going to be there so in 2017 so we can start to 
ramp up our operations.
    Senator Merkley. Well, I certainly support that, and the 
State has put money into it.
    Mr. Tidwell. Yes.
    Senator Merkley. Local communities have put a tremendous 
amount of energy and huge number of stakeholders. So often we 
hear about the conflicts. Every now and then, there is a 
shining example of people really sitting down in the room who 
might have had historic disagreements and working out a plan, 
and that is what those collaboratives have represented.
    I do want to note that on fire-borrowing I have this 
concern as well. I understand the position of the Secretary of 
the Department of Agriculture and the way he is saying let us 
figure this out. We should figure this out. We should 
absolutely stop fire-borrowing. It shuts down all the other 
components of the Forest Service when we have these high fire 
years. I am not sure just how we will figure this out here on 
this subcommittee, but I applaud the interest of all of the 
colleagues who have spoken about this, both sides of the aisle, 
and we will continue to work on that.
    And then finally, I just wanted to mention outdoor 
recreation in Oregon, it accounts for $12.8 billion in consumer 
spending, $4 billion in wages and salaries, 141,000 direct 
Oregon jobs. As my colleagues from Montana expressed, it is a 
huge part of our economy, and in many ways, the funds that have 
come from offshore drilling have been very helpful in 
addressing key components of access by the public in 
maintaining this key part of our economy, and I strongly 
support the budget request you have made.

                               RECREATION

    Mr. Tidwell. Well, Senator, thank you for that. Without any 
question, outdoor recreation supports more jobs than the rest 
of the activities that occur on the national forest. It has 
become the number one driver, especially in our smaller rural 
communities. It not only contributes to the quality of life, 
but it is what people enjoy the most about their national 
forest. So I appreciate your support for our budget request to 
have additional recreational money in fiscal year 2017.
    Senator Merkley. Thank you very much.
    Senator Udall [presiding]. Senator Leahy.
    Senator Leahy. Thank you, Chief. Thank you.
    Your folks in Vermont are great, and I enjoy being with 
them when I am there. And thank you for the State and Private 
Forestry program. It gives a lot of technical and financial 
support to the Vermont Monitoring Cooperative, and that has 
become a regional resource after 25 years of experience.
    Let me ask you one thing. In your budget request, I have 
always made acquisition of high-resource-value lands within the 
Green Mountain National Forest. And I realize this is somewhat 
parochial, but I will----
    Mr. Tidwell. Okay.
    Senator Leahy [continuing]. After 40 years on this 
subcommittee, I have heard some parochial questions. I am proud 
that nearly 150,000 acres have been added to the national 
forest since I came here to the Senate.
    Now, you are going to have a rare opportunity to secure the 
largest single private in-holding in the Green Mountain 
National Forest, 6,000 acres of pristine forest habitat. It is 
surrounded by the national forest. It will be perfect for it. 
The owner, TransCanada, has announced it will sell the land, 
along with its hydroelectric facilities in the region. Do you 
have the capacity that you could take this on if you wanted to? 
Is it something you are interested in?
    I just thought I would mention my interest.

                     GREEN MOUNTAIN NATIONAL FOREST

    Mr. Tidwell. Yes.
    Senator Leahy. Go ahead.
    Mr. Tidwell. Well, no, it is more of how you are describing 
the property, and an in-holding, it sounds like it would be 
exactly what LWCF program is about.
    The challenges that we have is that we already designated 
the projects for this year that we are going to be funding. 
However, we have a very good track record of being able to work 
with our partners that are able to step in and acquire a parcel 
like that and then hold it with basically an understanding that 
we will then provide the funding over the next couple years.
    That is what is so beneficial about having LWCF 
reauthorized so that those partners have some assurance that if 
they step out, commit their resources, that there is a high 
expectation that we would be able to come in and buy that 
parcel.
    Senator Leahy. You know, I have been a prime champion ever 
since I have been here. One of my predecessors, Senator Bob 
Stafford of Vermont, was another one. But this is such--my 
family has been in Vermont since the 1800s. This is such a 
unique piece. I just do not want us to lose the opportunity.
    As you know, it is easy, you can buy the land. If you make 
up your mind later that was a mistake, you can always sell it 
back, but if you do not buy it, you are never going to get it 
back, especially and in-holding like this. It would be very 
valuable.
    Thank you.
    Mr. Tidwell. I will personally look into this to see what 
our flexibility is based on your description, it sounds like it 
is a parcel that we need to do what we can to provide it to the 
public.
    Senator Leahy. And the other thing I wish you would take a 
look at, and my staff will work with you on this, is 
woodstoves. I think Vermont and Alaska are among the highest 
number of usage in the country. I know a lot of others do, 
certainly in New England. We do in our own home. I mean, we 
obviously have a furnace because we are not there all the time, 
but when we are there, we use a woodstove. And it is kind of 
nice, especially when it is 10 below zero except going out to 
the woodshed to get the wood.
    But where it is going in this next generation of wood 
design, it is going to be a challenging time for the companies 
that make the woodstove to meet the new stricter emissions 
standards. And I hope that you can provide assistance on that 
as they try to do that and to give them enough time to make 
everybody--we will follow the standards, but we need time, 
otherwise, some of these companies are going to go out of 
business if they cannot figure out just what it is that they 
have to do.

                               WOODSTOVES

    Mr. Tidwell. So, Senator, we are working with the Alliance 
for Green Heat woodstove, the challenge design, so that we can 
help the industry to determine the changes that they need to 
meet, and then we do need to provide the time for the industry 
to catch up.
    Senator Leahy. It is the time----
    Mr. Tidwell. Yes.
    Senator Leahy [continuing]. That is important there. I do 
not think anybody objects to doing it. They just want to have 
the time. Otherwise, some of them are just going to go out of 
business. And in my State, they provide a lot of employment and 
good employment.
    And lastly, I know you are working on this, but I continue 
to worry about the white-nose syndrome now in the Western 
States that we have seen the effect of that on agriculture, 
forestry, and everything else. It is significant. So I just 
throw it on your radar like you do not have anything else to 
worry about.

                          WHITE-NOSE SYNDROME

    Mr. Tidwell. Well, when it comes to white-nose syndrome, it 
is one of the things that is top of my list.
    Senator Leahy. Thank you.
    Mr. Tidwell. It is what our research and scientists are 
working on and working with the universities to be able to find 
a solution to this.
    We are having some progress on a limited basis, and so 
there is some hope there. But I will share with you when I read 
probably the same article about the bat that was found in 
Washington.
    Senator Leahy. That is scary.
    Mr. Tidwell. Yes. At that point we did not know that we had 
white-nose that far out West, and indications is that it has 
been there for a while. So it just increases the urgency for us 
to find a solution.
    Senator Leahy. When I first started working on this getting 
money to study it, people thought I was thinking of a fictional 
character sometimes in movies called Batman, and it is not. It 
is a very important thing. What it is doing to agriculture 
throughout this country is awful.
    Mr. Tidwell. Well, Senator, your leadership helped us to be 
able to be where we are with the research because if we were 
just starting today, we would be that much farther behind the 
eight ball to be able to find this solution.
    Senator Leahy. Thank you. And we have been helped here. So 
thank you very, very much.
    Now, I see our distinguished chair back, and I think I had 
better go vote.
    Senator Murkowski. You better go vote.
    Senator Leahy. I was talking about woodstoves----
    Senator Murkowski. Oh.
    Senator Leahy [continuing]. And that is a concern in 
Alaska, Vermont, and elsewhere, and I appreciate the response I 
got.
    Thank you very much.
    Senator Murkowski. Thank you. I am sorry I missed your 
question. As you say----
    Senator Leahy. Yes.
    Senator Murkowski [continuing]. It is an issue for us at 
home.
    Chief, since everybody has left us, let us talk about the 
Tongass. This is a little bit of a follow-up to the questions 
that I posed to you in the Energy Committee, but at that 
hearing you mentioned that you did not think that the Forest 
Service needed to request the money in the fiscal year 2017 
budget for a site stand inventory, studies to look at the young 
growth in terms of how much is actually available. You know my 
concerns there.
    Can you give me, I guess--you kind of outlined why you 
think you did not need it at the hearing. How much in program 
funds will be made available for this inventory study? Are you 
looking at perhaps having to curtail or just move money around 
from other programs for this work? Is it going to delay, for 
instance, permits or timber sale preparations? How do you see 
this moving forward? Because you know the importance that we 
are certainly assigning to this inventory.

                          TONGASS/TIMBER SALES

    Mr. Tidwell. Well, Madam Chair, it will not have any 
impacts on the ongoing operations, programs we have there on 
the Tongass. We are using our State and private funding to work 
with the State to be able to do the inventory on 50,000 acres 
of young growth and 20,000 acres of old growth, which will 
provide the information for the project level design that we 
need as we continue to move forward, following the planned 
amendment.
    Senator Murkowski. How much are you counting on the State 
for funding for? Because as you know, they are in a world of 
hurt right now with their budget.
    Mr. Tidwell. Well, we are providing the funding. We are 
using their capacity to help us.
    Senator Murkowski. Okay.
    Mr. Tidwell. Also, I think it just makes better sense for 
us to be working closely with the States, so we are providing 
the funding and then using their staff to help us to be able to 
get this work done.
    Senator Murkowski. So you do not see a situation where you 
are either going to see a slowdown or a delay in timber sale 
preparations or in issuing permits because you have had to 
direct funding to the inventory analysis?
    Mr. Tidwell. No, we are using our State and private funds 
which do not contribute to the work that you are describing.
    Senator Murkowski. Okay. So you say you have got State and 
private. Given what you have, given that there was $2 million 
plus that were allocated from fiscal year 2015 funds, how much 
more then will you need in fiscal year 2016 or fiscal year 2017 
to complete the study here?
    Mr. Tidwell. So it is my understanding that the money that 
we have provided will provide inventory on the total of 70,000 
acres.
    Senator Murkowski. Well, wait, the total is 70,000.
    Mr. Tidwell. Well, it is 50.
    Senator Murkowski. I thought it was 400--the complete 
inventory is 435,000 acres.
    Mr. Tidwell. Excuse me. The money we have right now will 
pay for the 70,000 acres.
    Senator Murkowski. Okay.
    Mr. Tidwell. We will continue to do the inventory, design 
the projects, and yes, there will be additional stand-level 
inventory. It is always just part of our work. I will have to 
get back to you on what we will need in the future after we 
complete this inventory.
    [The information follows:]

    The agency did not fund and does not intend to fund an intensive 
survey of all 435,000 acres of young growth on the Tongass. The cost of 
funding such a survey would exceed the benefits gained. The information 
collected through the current agreement with the State of Alaska on 
70,000 acres of combined young growth and old growth bridge timber, 
when combined with existing information on Tongass young growth stands, 
will provide a rich data set from which sound estimates can be 
developed for a variety of land use planning purposes.

    Senator Murkowski. Would you do that? Because I want to 
know that we have funding in place. I want to know that we are 
going to be able to complete this, and of course complete this 
within a reasonable time period but really be able to do the 
work and get a full and honest inventory.
    You know, the concern that I have is if we are talking 
about the need for any of our mills, whether it is Viking or 
otherwise, to convert so that they can accommodate the young 
growth timber, you know, you have got to go to the banks. And 
the concern that I have is you are not going to have any 
commercial lenders that are willing to provide any level of 
financing for a mill that might be looking to convert until you 
have these studies that show what it is that is actually 
available to the mills so that they can amortize the investment 
that they have made. So it is one of these very circular 
issues, and until you have that analysis and knowing that it is 
a complete and full analysis, again, the concern that I have is 
that this whole proposal just does not work.
    There is an article in today's clips about action that the 
State is taking at the State level to provide State inventory 
to Viking to kind of keep it alive for the next couple of years 
because they have said that they have only got a year-and-a-
half of timber left available because the Big Thorne sale has 
been reduced so significantly. The number in the article is 
that there is 128 timber-related jobs right now in the State of 
Alaska. It is the lowest number since 1890, 1890. And again, I 
have not fact-checked that, but that was what was reported 
yesterday.
    I have a whole series of questions about how we are going 
to work to make sure that Viking, as the last medium-sized 
sawmill left in southeast Alaska, how they are going to be able 
to survive this transition. And, you know, maybe what I will do 
is the more specific questions I will just submit to you for 
the record, but just tell me how, if Mr. Dahlstrom were sitting 
here today, how would you tell him that the Forest Service 
intends to keep Viking Lumber alive after next summer?

                         VIKING LUMBER SAWMILL

    Mr. Tidwell. Well, I would start with our 5-year plan that 
shows the sales that we are planning to move forward with, when 
we will have the NEPA done, and when we will make the offer. 
And that is with the old-growth bridge timber that we are still 
committed to doing. Then in addition to that, I would also talk 
about the young growth that we are going to start moving into. 
Then ideally--the inventory is essential, so we have the 
information to be able to do those future projects.
    But, I also think what is more important is that after the 
plan amendment is completed, we would be in a position to enter 
into a long-term stewardship contract on that young growth. So 
not only would you have the inventory information that you 
would need, here you would have a stewardship contract that 
guarantees the Forest Service is going to make X amount of 
material available over the next 10 years. I think that is 
necessary.
    Senator Murkowski. But Mr. Dahlstrom has to get to that 
time period when this is all happening, because right now he 
can get Viking Lumber through next year. You know, are the 
sales coming from Naukati? Are they coming from Wrangell 
Island? It is one thing to show somebody the plan. It is 
another thing to show him the timber, show him the logs.
    And this is where, you know, quite honestly, on the Federal 
side people are just giving up on you. That is why they are 
going to the State right now and saying is there not something 
that you can help us do to piece some things together? Because 
they are not seeing--we keep talking about a transition, and on 
paper it might look okay, but in the meantime, you have to have 
operators that are staying alive. Promises of being able to go 
to young growth work if you are able to convert your operations 
to that. But in the meantime, what do you have that is piecing 
you together?
    So we have these conversations either here, in Interior 
Appropriations, or at the Energy Committee, and, you know, 
again, the believability about how this all works on the ground 
out on the mill site, that part of it is not translating, 
Chief, and that is the problem for Mr. Dahlstrom and for people 
like me that are trying to help him.
    Mr. Tidwell. Senator, I appreciate your concern. The 
region, I think, is doing an excellent job to reach out and 
work with everyone, whether it is the State, which I really 
appreciate what they are doing, whether it is Sealaska, whether 
it is Mental Health Trust, to be able to look at what we can do 
together so we have kind of a coordinated program over this--
especially through this bridge time so that here is the amount 
of bridge timber that is going to be available over this period 
of time. And we are talking about many years. I mean, it is not 
going to happen tomorrow or the next year. So the bridge timber 
has to be over a period of time.
    Then it is the second time for the Forest Service to be 
moving forward with our young growth and to be able to put 
enough of it out there that would justify the investment to 
retool a mill. That is where there has got to be some level of 
certainty. When I reference a long-term stewardship contract, 
for instance, is one way to provide that certainty on the young 
growth. That is in addition to what we are doing to be able to 
have that coordinated effort to be able to provide the bridge 
timber into the future.
    Senator Murkowski. There is not going to be anyone to walk 
over that bridge. I mean, this is--you have got all the right 
buzz words, transition, bridge timber. You know, there is 
nobody left, and I feel like I am Viking's advocate and I am 
kind of highlighting them because they are a poster child. They 
are a poster child because there is nobody else who has been 
able to survive. And this is the concern that I have.
    You say you appreciate my concern. My concern is it is not 
just the Dahlstroms. It is a whole economy in southeastern 
Alaska that has been just kind of pushed over the edge, a 
direction that Forest Service has taken that in the eyes of 
many of us has been one that is just kind of unfortunately 
slow-rolling things. And people have to move on. They move out. 
They give up. And it is not because there is not sufficient 
resource. There is certainly sufficient resource.
    And I know that this is hard. I know that this is hard, but 
I think about those who just get up every day and say we are 
here to make a living, we are here to employ a few people. We 
recognize that we will never get back to the timber heydays in 
southeast Alaska.
    But, you know, I think that what is going to happen is by 
the time this administration leaves, you will have more in the 
industry that just have not been able to survive, and we do not 
get them back.
    I want to ask a question that presented itself after the 
hearing last month. You said that if Congress were to simply 
remove the language in the appropriations process to allow you 
to offer deficit sales, basically where timber is expected to 
be unprofitable to harvest and sell, that you could probably 
offer a lot more timber for sale in the Congress.
    Now, I heard that, and I have to think that I misunderstood 
it because it sounded like what you were saying is that if we 
here in Congress allowed you to sell more unprofitable timber 
that you could offer a lot more of it. But why would anyone 
actually bid on the timber if they are being told in advance 
you are not going to make any money off this; this is not going 
to be profitable? Why would they do it? How does that make 
sense? Maybe I am missing something here.

                              TIMBER SALES

    Mr. Tidwell. So the way it works in the lower 48 States is 
that we do our calculations on the appraised value. Sometimes 
the sales are somewhat marginal.
    Senator Murkowski. Right.
    Mr. Tidwell. So what we do, we sit down with the operators 
and we share it and ask if anyone is interested. If there is no 
interest, then we say, okay. Often we make an offer and 
sometimes we have no bids. But there are sales, from our 
calculations, that look like they are marginal and they are 
bought.
    Senator Murkowski. Is that going to be true in the Tongass?
    Mr. Tidwell. No. In the Tongass we have to go through the 
calculation to calculate the logging cost, the stumpage rate, a 
set profit margin, and then also to cover a percent of the 
risk. So it is kind of the locked-in figure and we do not get 
to factor in the changes in the market. We do not get to factor 
in that, by having that other 15 million board feet, it keeps 
my shift going so I have efficiencies. So what we would like to 
do is just be able to offer this. If it is not profitable, we 
do not expect anyone to buy it, but it puts an additional 
burden on us. For instance, we had a sale last year and it has 
been working for us.
    Senator Murkowski. But does that not take money and staff 
to prepare all that and you are just going to hope maybe that--
--
    Mr. Tidwell. Well----
    Senator Murkowski [continuing]. Somebody bids?
    Mr. Tidwell [continuing]. It is really just to provide the 
industry and the operators some options so they can look at it 
and they can also give us some feedback about what changes we 
can make to make it a little bit more profitable for them.
    But it is a requirement that we are able to operate without 
it in the rest of the States, and so I expect that some of 
these sales--and we have several of them that I am asking the 
region to take a look at because the prices of timber have come 
up the last several years. We are in much better shape today 
than we were 3 or 4 years ago. So are some of these that show 
there is interest? To actually let the industry, let Viking say 
yes, I can make that work because it allows me to be able to 
maintain this. I will not make a lot of money on it, but it is 
still a good project. I want to go for it versus not going 
forward with it.
    And as we deal with the fluctuation with the prices and we 
are fortunate today. I do not know where we are going to be 
next year or the year after, but I think the price--when I 
looked at what the sales were going for there on the Tongass in 
just the last 2 years they have gone up significantly in what 
they are paying for it.
    So this is, I think, a better time for us to be able to 
have that discussion, to have the flexibility to offer it, and 
then to see if there is any interest. It has worked for us in 
the other States. We still put the work together. I am looking 
for everything that I need to be able to find a way to move 
forward with these projects and to be able to deal with, at 
times, a soft market. But that is where I was coming from.
    Senator Murkowski. Okay.
    Mr. Tidwell. I was not asking anyone to pay more because 
the last thing we want is for anyone to lose money. We need 
them to stay in business. They cannot stay in business if they 
are losing money. But sometimes their calculations are better 
than ours because they actually know what their true costs are. 
We use the costs that are given to us and they are more 
general. It has been my experience they have better 
information. So I just like to share it, offer it, and then 
they can say no.
    Senator Murkowski. Let me turn to Senator Udall.
    Senator Udall. Thank you, Madam Chair.
    Chief, I was looking at your chart you had here, and the 
way I--excuse me, one way of reading this chart is that since 
1998 you have had a reduction of total employees of 3,000, you 
have had a reduction of 9,000 non-fire employees, and an 
increase of 6,000 fire employees. Does that sound right?

                    REDUCTION OF NON-FIRE EMPLOYEES

    Mr. Tidwell. Yes.
    Senator Udall. And was there someplace that we took away a 
lot of that work from you so that you were able to shuffle that 
around? Is it fair to just say that--you know, I am not asking 
for an answer here. Is it fair to say that the employees you 
have left working in this non-fire area are doing a lot of 
additional work for people that are not there from 1998 until 
2015?
    Mr. Tidwell. Senator, we have made significant improvements 
on our processes to be more efficient and more effective. But 
that being said, there is definitely parts of our mission where 
the public is very frustrated because it takes us so long to be 
able to respond to them. So there has definitely been 
consequences. Our efficiencies will only take us so far, and I 
really do feel that we have kind of topped out.
    Senator Udall. Yes. And so I applaud all the hardworking 
Forest Service employees that are doing such good work out 
there.
    I wanted to discuss the proposal to divert an estimated 
14,000 acre-feet of water from the Gila River in New Mexico. 
The headwaters of the river in the Gila National Forest, the 
diversion would serve communities in southwest New Mexico. This 
proposed project concerns me for a variety of reasons. I 
believe the project's costs are way out of proportion to the 
benefits. It is estimated to provide very little water on a 
consistent basis.
    The project also would take an enormous environmental toll. 
The Gila River is one of the last remaining free-flowing rivers 
in the United States. It is a crown jewel of the Southwest. It 
is critical for recreation, wildlife habitat, and many other 
uses, and it has tremendous historical value. It is so special, 
I am considering legislative options to designate sections as a 
wild and scenic river. The Wild and Scenic Rivers Act was 
established to prevent the loss of free-flowing rivers in our 
most precious waterways.
    The Gila is in every way outstandingly remarkable, as the 
act specifies. How does the current management plan for the 
Gila National Forest protect the Gila River's outstandingly 
remarkable qualities, and what enhancements could be made to 
project this important watershed and ecosystem for future 
generations?

                     FOREST PLAN ON THE GILA RIVER

    Mr. Tidwell. Well, Senator, I will have to get back to you 
as to the specifics of the forest plan there on the Gila, 
generally on our forest plans, especially as you mentioned the 
significance of this river, that there will be standards and 
guides in there to be able to maintain the characteristics of 
that river and provide for those flows.
    [The information follows:]

    The Forest Service recognizes the value and significance of the 
Gila River and protects it through management practices outlined in the 
Gila National Forest plan. Specific areas of focus are as follows:

  --Wildlife and Fish Habitat: Maintain and/or improve habitat for 
        threatened and endangered species and work toward the eventual 
        recovery and delisting of species through recover plans.
  --Soil and Water: Provide for long-term quality waterflow needs 
        through improved management technology.
  --Riparian: Improve all riparian areas to satisfactory or better 
        condition.
  --Cultural Resources: Inventory and prevent loss or damage of 
        cultural resources until they can be evaluated for scientific 
        study, interpretive services, or other appropriate uses.
  --Riparian:
    --Manage reparian areas in accordance with legal requirements 
            regarding floodplains, wetlands, wild and scenic rivers, 
            and cultural and other resources.
    --Manage riparian areas to protect the productivity and diversity 
            of riparian-dependent resources by requiring actions within 
            or affecting riparian areas to protect and where 
            applicable, improve dependent resources. Emphasize 
            protection of soil,l water, vegetation and wildlife and 
            fish resources prior to implementing projects.
    --Give preferential consideration to resources dependent on 
            riparian areas over other resources. Other resource uses 
            and activities may occur to the extent that they support or 
            do not adversely affect riparian-dependent resources.
  --Facilities: Road construction will be avoided in riparian areas.

    The project you are referring to is one that--as I 
understand, we have not seen a formal proposal yet. We are 
having discussions with the Bureau of Reclamation on it and 
definitely would share some of the concerns that you have 
mentioned, but at the same time would want to work with the 
Bureau of Reclamation.
    There is just no question of the beauty and the benefits of 
that free-flowing river that comes off the Gila. It provides an 
incredible recreation resource for the folks that not only live 
there but people that come from all over the country to see 
that place.
    Senator Udall. Yes, well, thank you for that. And as you 
know, the two water management agencies, the Bureau of 
Reclamation and the New Mexico Interstate Stream Commission, 
are co-leading the environmental review process, and I am just 
hoping that the Forest Service will also take an active part of 
that. I mean, you know and understand the river better than 
anyone, and so we hope that just because they are the co-leads 
that we want you to step out and speak strongly about the 
values that are there for the Gila River.
    Chief, the traditional communities in New Mexico, the land 
grants and the acequias, are important stakeholders when it 
comes to land management decisions in my State. These folks 
have a long history and centuries-old traditions. They are 
deeply tied to the land. The fiscal year 2016 Senate 
appropriations report strongly encourages the land management 
agencies to incorporate these communities in the land 
management planning process. It is very important for your 
agency to make a good-faith effort on this, and I thank you for 
your recent visit with some of these communities in New Mexico.
    I understand that these folks gave a presentation to you 
and your staff during your chief's review. I would really like 
to see the Forest Service build on these positive efforts. 
Congressman Ben Ray Lujan is working with the land grants on 
legislation over in the House that will help facilitate the 
progress that has been made thus far, and I intend to join his 
efforts by introducing a bill in the Senate sometime in the 
future.
    Can I get your commitment to continue working with me to 
ensure that these traditional communities in New Mexico have a 
seat at the table when it comes to land management decisions 
and get your valued input on this legislation when the time 
comes?

                            LAND MANAGEMENT

    Mr. Tidwell. Yes. Senator, we look forward to working with 
you on that. Our forest on the Cibola--they have just recently 
been granted cooperative status to land grant heirs there, 
which is our authority to be able to allow them to be an active 
participant throughout the planning, not unlike what we provide 
to a county. So I think this is one step forward where we can 
do a better job to be able to make sure that we understand 
their needs, their traditional uses of the land, and to be able 
to factor that into our planning efforts.
    Senator Udall. Thank you, Chief. Madam Chair, I have a 
couple more questions here, quick ones. Shall I go ahead or do 
you want to----
    Senator Murkowski. I am going to do another round. Do you 
want to do another round?
    Senator Udall. Sure. Let us go ahead and do another round.
    Senator Murkowski. Okay.
    Senator Udall. That would be great.
    Senator Murkowski. All right.
    Senator Udall. I yield back to you.
    Senator Murkowski. We will both try to stick to our limits 
here.
    Let me ask you, Chief, about the demand study required 
within the Tongass Timber Reform Act requiring the Forest 
Service to provide enough timber to meet market demand for 
Tongass timber. We are seeing in this draft demand study cause 
for a pretty sharp in demand this year and into the future.
    And there are a few things that it mentions as a result of 
this, and that is the value of the U.S. dollar causing some of 
the demand decline, but then it goes on to say that the demand 
dropped dramatically not because of market forces but because 
the transition requires that a cap be placed on the amount of 
old growth timber being offered, and so the study limits its 
demand estimates to the amount of timber that might be made 
available to supply the market. So it is a very circular logic 
if you will.
    I am told, again, not only by Viking but by Sealaska as 
well that they could sell a lot more timber at economic prices 
if the timber was made available. So I interpret that to mean 
that the demand is higher than what is being assumed, certainly 
higher than what you are seeking to provide.
    So what is the justification for this latest demand study 
that shows this very precipitous drop? It goes from--I mean, a 
drop of more than 100 million board feet in market demand 
between 2014 and 2015. How do you justify this?

                       TONGASS TIMBER REFORM ACT

    Mr. Tidwell. Well, Senator, I will have to get back to you 
on some of the specifics that is being used in the calculation 
and the modeling for that demand. But I think it just probably 
states the reality of where we are. Once again, we have been at 
this for decades of trying to find a way to go forward so we 
can assure that----

    [See information below under the heading ``Specifics for 
Latest Demand Study, Potential Export Demand, and Export 
Market''.]

    Senator Murkowski. Well, the reality is is that there is 
more demand than you are allowing to be provided. And if the 
law requires that the demand study--you provide what is being 
requested, there is the mismatch there.
    Mr. Tidwell. I will get into the calculations. There is the 
demand, what is needed domestically, and then there is the 
potential demand for exports internationally, which is the 
export of whole logs--when I look at the amount of timber that 
is harvested there in the southeast and I look at what goes 
through the mills there, there seems to be adequate timber if 
you were not exporting.
    Now, I understand the export is necessary to make it 
economically viable, but I think that is the other part that 
needs to be factored into this. So I am going to have to get 
back to you on the specifics of what is driving those 
calculations that our scientists are using to be able to come 
up with that shift.

    [See information below under the heading ``Specifics for 
Latest Demand Study, Potential Export Demand, and Export 
Market''.]

    I think what is even more important for us is to just be 
able to sit down with the industry that is there, be able to 
have the discussions, what is it that you need to be able to 
operate your mill and to be able to look at the land ownership 
there in the southeast, and then to work together to provide 
that level of material.
    Senator Murkowski. Well, I think that----
    Mr. Tidwell. I will always be looking for opportunities 
where we can find ways to keep more of those logs in southeast 
Alaska and that they are put through a mill there ideally put 
into some form of potentially mass timber mill, a Cross 
Laminated Timber (CLT) facility or something like that to 
create more jobs.
    Senator Murkowski. We would like to see that, yes.
    Mr. Tidwell. I understand the needs for the export market 
to make it economically viable, so I am going to have to get 
back to you to answer your question.
    [The information follows:]
specifics for latest demand study, potential export demand, and export 
                                 market
    From 2000 to 2011, the Tongass National Forest timber harvest 
declined by nearly 70 percent. Factors contributing to the decline 
included changes in the structure of the Alaska forest products sector, 
macroeconomic conditions in domestic and overseas markets, markets for 
Alaskan products, and conditions faced by Alaska's competitors. 
Considering all these, the Pacific Northwest (PNW) Research Station 
projected the average demand for Tongass National Forest timber, over 
the next 15 years, ranged from 46 to 76 million board feet. Three 
different scenarios display alternative futures for Southeast Alaska 
that all incorporate the transition of the Tongass National Forest from 
old-growth to young-growth timber harvest. These scenarios differe in 
the use of the projected harvest, in that the young growth scenario 
calls for a reduction in harvest from the Tongass National Forest, the 
wood energy scenario focuses on demand for utility logs, and the U.S. 
housing scenario includes a projected increased demand for saw logs for 
lumber.
    PNW Research Station scientists established that demand in the 
``seek to meet'' language meant demand for end forest products. This 
interpretation of demand is based on solid economic theory and is the 
accepted definition in all PNW Research Station long-term timber demand 
analyses. The application of this definition in peer-reviewed 
methodology includes identifying all markets receiving Alaska wood 
products, assembling historic market data for wood products, and 
projecting the future using a trend-based approach. The Forest 
Service's timber demand projections are based on accepted principles of 
economics and undergo rigorous peer review to ensure that the decisions 
they support are scientifically sound and legally defensible.

    Senator Murkowski. Well, let us do that because I think it 
has been made clear what the operators need, what they want. We 
know who has the land there. It is publicly held. Everything in 
southeast is there in the Tongass, so there are not a lot of 
unknowns in that way.
    Let me ask about the commercial thinning. You published a 
requirement in 2010 that requires a substantial investment in 
commercial thinning in the Tongass to obtain the 30 to 50 
million board feet of young growth volume that you said in 2010 
could be achievable within the first decade of a young growth 
transition. So far, all that we have seen coming out of the 
Forest Service has been the pre-commercial thinning in the 
Tongass.
    How much timber needs to be commercially thinned in the 
Tongass to meet the 30-to-50-million-board-feet level a year 
that you had said would be that requirement? What is the cost 
of that, and how much of it have you actually been able to 
accomplish?

                 COMMERCIAL AND PRE-COMMERCIAL THINNING

    Mr. Tidwell. It is my understanding we have had one 
commercial thinning sale that sold and we are moving forward to 
be able to put more of that type of work together. We are going 
to have to continue not only the pre-commercial thinning in the 
young growth but also the commercial thinning to be able to 
manage those stands so that as we move forward with the 
transition we are actually increasing the rate of growth of the 
trees, which will actually accelerate and be able to get to the 
point where those trees are marketable.
    Senator Murkowski. But I mean this is your statement. This 
is your publication. When you took over, you said that this was 
what we are going to need to do. This would be the substantial 
investment. So what you are telling me is we have only done one 
pre-commercial thinning in that period of time?
    Mr. Tidwell. Well, we have started. It is part of 
collecting the inventory information so that we understand 
which sites where we actually need to make our investment into 
the young growth to be able to do this pre-commercial thinning. 
So we have started this work, and we are going to be able to 
continue as we move forward with it.
    Senator Murkowski. How have you funded for it in this 
year's budget then?
    Mr. Tidwell. It is part of the forest products budget that 
has been provided to the region.
    Senator Murkowski. And do you know how much is estimated 
for the commercial and the pre-commercial thinning, how much 
you have in the budget directed for that?
    Mr. Tidwell. I will get back to you as to how much the 
region has been allocating for those three different 
activities.
    [The information follows:]

    Purchasers implement and pay for commercial thinning during 
execution of a commercial timber sale, and the Forest Service does not 
track their expenditures. For commercial thinnning, the Forest Service 
pays for preparation work (designating and measuring trees to be 
harvested), and administration of the contracts. The Tongass has 
offered, and sold the Heceta Young Growth Stewardship contract which 
implemented a ``commercial thin'' prescription and it was successfully 
completed in 2015. The sale was planned, designed and administered 
within the normal forest products appropriations for the Tongass.

    Senator Murkowski. Thank you.
    Let me turn to Senator Udall then.
    Senator Udall. Thank you, Madam Chair.
    Chief, in recent years we have had a couple of sawmills 
close in my State. One was the Mescalero Forest Products 
sawmill. This was a tribally owned enterprise. It was 
responsible for hundreds of jobs in southern New Mexico. This 
sawmill used to conduct hazardous fuels reduction projects in 
smaller-size trees, but it was forced to close due to a number 
of factors. And I want to work with you to reopen this mill and 
others like it in New Mexico.
    In recent weeks, we have seen a number of fires on 
Mescalero lands and in the nearby community of Ruidoso. 
Luckily, these fires were not as bad as they could have been. 
This is largely due to the extensive and collaborative fire 
restoration work in the area, including the Lincoln National 
Forest. Clearly, fire restoration work is good for the forest 
and good for communities like Mescalero, which need the jobs.
    Will you work with us on long-term Forest Service contracts 
and the necessary environmental analyses on a large scale to 
provide for more long-term predictability in the market for 
small sawmills in my State of New Mexico?

                           MESCALERO SAWMILL

    Mr. Tidwell. Senator, yes. What you are describing is what 
is needed for us to have more of these long-term stewardship 
contracts where there is some certainty about the amount of 
biomass, the amount of saw timber that is going to be available 
for, say, over 10 years.
    In addition to that, we are working with the tribe to be 
able to do the analysis, to look at what it will take for the 
investment that is necessary to be put into that mill so it can 
be reopened.
    Senator Udall. Thank you, Chief. Chief, Senator Heinrich 
and I have recently learned some troubling information 
regarding Forest Service hiring practices. It is my 
understanding that a job fair was recently held in Phoenix, 
Arizona, for 16 Forest Service positions in New Mexico. And 
apparently, the only way for New Mexicans to apply for these 
positions was in person, so New Mexicans would have to travel 
from New Mexico over to Arizona. This puts New Mexicans at a 
severe disadvantage obviously. These are jobs in New Mexico, 
and they are opening up over there in Arizona where you have to 
travel to do that. But the hiring was done only in Arizona.
    Similar job fairs were held in New Mexico last year for 
positions in Arizona, and this obviously put folks in Arizona 
at a disadvantage. How can the Forest Service change its 
practices so that more New Mexicans can be considered for those 
positions if they are unable to make a trip to Arizona? Have 
you all looked at various things that could be done there short 
of somebody having to travel in person over to another State?

                    FOREST SERVICE HIRING PRACTICES

    Mr. Tidwell. Yes. We do job fairs where we interview people 
onsite. They are supposed to be able to have anyone who wants 
to send in their application to be considered. The job fairs 
that I have personally participated in at those sites we were 
able to interview applicants that are there. We also interview 
applicants that just sent their application in, either do a 
phone interview or follow up with them.
    As we explore different ways to be able to do our outreach, 
to be able to ensure that we are going after the future 
generation for the Forest Service, we are going to have to do a 
better job to coordinate these job fairs and do it in a way so 
that everyone can apply, whether you are in that location or 
you happen to be in town that day. We need to make sure that 
folks have an opportunity so we can look at the full candidate 
pool.
    So it is an area that we need to be doing a better job, and 
as we have gained some experience on this, we are improving our 
process.
    Senator Udall. Great. Thank you very much.
    My understanding on the two that I described is that they 
were actually unable to apply and to participate unless they 
traveled in person. And that was true in the Arizona one for 
New Mexico people and then the New Mexico one for Arizona 
people.
    And I am glad to hear that you are trying to adjust your 
processes because we have many good folks that have lived close 
to the land and near the national forests that really want to 
do these jobs, and we look forward to having those positions be 
available to them in a number of different ways.
    Thank you, Chief.
    Thank you, Madam Chair.
    Senator Murkowski. Thank you. I just have one very quick 
question and then we will wrap here. And that relates to the 
Forest Inventory and Analysis Program. We had increased funding 
in the omnibus last year, and Forest Service had indicated that 
this would allow the program to extend into interior Alaska.

              FOREST INVENTORY AND ANALYSIS PROGRAM (FIA)

    Mr. Tidwell. Yes.
    Senator Murkowski. We had a quick exchange about the 
benefits of being able to rely on our State foresters. I think 
we recognize that they have an ability to perhaps be a little 
more nimble and provide work at lower cost. How has this 
additional FIA funding been distributed to the regional 
programs and the States? And are we going to get to what we had 
hoped, which would be the effort to bring interior Alaska into 
the FIA program? How are we coming on that?
    Mr. Tidwell. Yes. Interior Alaska is now going to be added 
into the FIA program, and this additional funding allows us to 
be able to have the program across the board in our Western 
States so that we are reading those plots at a 10-year interval 
in the West and a 7-year interval in the East. The big addition 
is with Alaska.
    We work with FIA with a partnership with our States. Some 
of the States contribute additional money just so that the 
plots are read at a higher frequency. We also work to employ 
people from the States. It is one of the things we need to look 
at in Alaska to be able to strengthen our partnership there 
with the State and to use their personnel and their skills to 
be able to help us to carry out our FIA program there in 
Alaska.
    Senator Murkowski. Good. Thank you. We will be working with 
you on that.
    The Senators from Montana both mentioned the recreation 
funding and the accounts and the impact to Montana on trails. 
As you know, we were able to see a little bit of an increase in 
region 10 with regard to the recreation funding because there 
had been that disproportionate cut into the region.
    But even with this, we are still hearing some concerns, 
some issues, that despite the funding trends, there are some 
problems that continue to persist. One example was there is a 
company in the Chugach National Forest that wants to expand 
into paddle boarding, and they have been told that Forest 
Service does not have sufficient funds to consider an 
expansion, really small example but I think we continue to hear 
it across both the Tongass and the Chugach from our folks in 
the State and it gets to us back here. So I am assuming other 
regions outside of Montana and Alaska are experiencing the 
same.
    So again, we recognize the great recreational values that 
comes out of our national forests. You hear me take up most of 
my time in these hearings talking about timber within the 
Tongass, but I also recognize again the great recreational 
value, so making sure that we are able to meet the needs and 
the interests of folks as they access our Forest Service lands 
and how we deal with what would be considered some pretty 
simple permits and simple opportunity for access. Know that 
that continues to be a concern for us.

                          RECREATIONAL PERMITS

    Mr. Tidwell. Well, Senator, with any one of those requests 
by themselves, yes, they would look fairly simple and we could 
take that application, process it, and be able to grant the 
permit. The problem is we just have so few people from what we 
have been able to do in the past. Yes, we have been able to 
hold the recreation budget basically flat in Alaska. But even 
with a flat budget over the last couple years, we still have 
not recovered from the significant reduction. I think it was in 
fiscal year 2012 with our recreation funding. So we are dealing 
with that.
    We are working to improve our processes just like we have 
when it comes to our timber sales where we reduced our cost by 
over 39 percent. Our unit costs are lower today than they have 
ever been. We are looking at trying to do the same thing in 
recreation.
    And so part of it is to look at our processes so that we 
can make it easier for groups to be able to access their 
national forests and grasslands. What we need to do is review 
our policies, especially for those noncommercial groups to make 
it very easy for them, which would then free up more time for 
us to be able to look at the commercial opportunities and have 
our staff, our limited staff actually spend more time on those 
efforts than what we do with more of these noncommercial 
activities that we get tremendous interest in that.
    So it is one of the things we are working on. I would hope 
when I come back here next year that when you ask me that 
question I will have a better answer about how we have been 
able to improve our policies to make sure we are using our 
staff the best place we really need them to work because often 
it is the commercial activities that take up a little more time 
to process the permit versus some of these noncommercial 
activities. So I am optimistic that we will improve our 
processes when it comes to permit processing, just like we have 
done when it comes to our timber sale program.
    Senator Murkowski. Well, I know that there are many that 
are anxious for that. And I would be remiss if I did not 
publicly acknowledge the good work of so many within the Forest 
Service, particularly there in the Chugach that helped to 
facilitate the harvesting and the safe transport and the 
celebration that we had here at our Nation's capitol when the 
Chugach sponsored or hosted the Capitol Christmas tree. It was 
great to see the tree. And when I was talking to the guards 
that were onsite while that tree was there--they said--they did 
not know who I was, they did not know my interest in the tree. 
They said that is the best-looking tree that we have had here. 
So we were Alaska proud. So we appreciate that.
    Mr. Tidwell. Thank you for your support and sponsorship. I, 
too, definitely enjoy--it is often by far the best time in this 
town for me. But not only was it a beautiful tree, but what I 
remember is the stories from the children that came from your 
great State and their participation in that and being involved 
in that. That is the sort of thing that really helps me to know 
that we are on the right track. I am just asking for your help 
so that we can increase our rate of progress and to be able to 
address these issues.
    But thanks again for your support for that event. It really 
made the difference.
    Senator Murkowski. It was. It was lots of fun. And we look 
forward to working with you throughout the rest of this year.

                     ADDITIONAL COMMITTEE QUESTIONS

    [The following questions were not asked at the hearing, but 
were submitted to the Department for response subsequent to the 
hearing:]
                   Questions Submitted to Tom Tidwell
             Questions Submitted by Senator Lisa Murkowski
    Question. In recent years, we have had discussions regarding 
recreation funding for Alaska. While dollars allocated to Region 10 
have generally increased, we continue to hear concerns regarding 
administration of recreation programs in Alaska. This is an ongoing 
problem that, despite funding trends, continues to persist. The 
feedback I get from Alaskans is fees are increasing and the Forest 
Service claims there are no funds to maintain trails. Additionally, the 
Forest Service seems unwilling to look at new opportunities for guides 
or other special use permit holders who want to increase tourism and 
business opportunities, which are the kinds of economic opportunities 
the Forest Service has placed a large emphasis on given the decline in 
timber sales. For example, in the Chugach National Forest we have a 
company that wants to expand into paddleboarding, but has been told the 
Forest Service doesn't have sufficient funds to consider an expansion. 
This is just one small example, but across both the Tongass and the 
Chugach there are numerous examples that my staff reports to me on a 
nearly daily basis. I'm guessing that other regions have similar issues 
to those we are facing in Alaska. The budget request proposes a $2 
million increase for recreation funding. How would that increase help 
with the problems outlined above?
    Answer. In fiscal year 2016, Wildland Fire Management accounted for 
56 percent of the Forest Service's discretionary budget and the 
percentage is expected to rise to 67 percent of the discretionary 
budget by fiscal year 2025. Therefore, finding a lasting solution to 
the fire funding problem will be critical. The long-term erosion of the 
agency's capacity due to the need to budget for the 10-year average of 
wildfire suppression costs limits both our financial and staff 
resources to accomplish recreation work, including trail maintenance 
and recreation permitting. There is a limited amount of funding for 
each Government agency/program, so the more that has to be spent on 
suppression, the less there is available for recreation, hazardous fuel 
reduction, other restoration treatments, and cooperative fire 
protection--whether that is on the ``front end'' through the budget 
request and appropriation or on the ``back end'' when funds are reduced 
through the fire transfer process.
    When prioritizing programs, the administration has recognized the 
importance of facilitating recreational access to National Forest 
System lands. Our fiscal year 2017 funding request for an additional $2 
million for the Recreation, Heritage, and Wilderness program will 
enhance the Forest Service's efforts to strengthen and deepen 
connections with the public through outdoor experiences. At this level 
of funding, we will continue to expand and enhance outdoor experiences 
for the public by implementing five goals:

  --modernize our recreation special uses program;
  --increase capacity and focus on our community service and volunteer 
        programs;
  --implement digital innovation;
  --enhance citizen access through our system of recreation roads and 
        trails; and
  --leverage demonstration projects in key special places.

    Regarding your specific concerns, the Forest Service is 
implementing a broad effort to modernize Recreation Special Uses, which 
is focused on enhancing guest services. Currently we are clarifying and 
simplifying policy around when special use permits would be required 
for temporary and priority outfitter activities. We are simplifying 
processes to facilitate access for hosted activities such as youth 
groups and educational organizations. We are developing standardized 
national training for Recreation Special Uses. Finally, process 
improvements are underway for modernization of our internal business 
tools and creating an electronic permit application process. We are 
working closely with outfitters and guides and other permittees on 
these process improvements. The modernization effort is occurring 
nationally, but will help facilitate process improvements in Alaska.
    Recreation fees generated from fee retention authority granted 
under the Federal Lands Recreation and Enhancement Act have remained 
relatively flat but stable over the past 3 years averaging roughly $3.8 
million in fee revenue for Alaska's forests ($3.86 million in 2013, 
$3.9 million in 2014, and $3.77 million in 2015). This authority is 
critical for maintaining our ability to collect fees and maintain 
recreation sites, thus we hope it will be reauthorized and extended 
beyond September 30, 2017.
    Recreation fees paid by the public are primarily used to support 
operations, maintenance and amenity enhancement at developed recreation 
sites. Recreation fees paid by outfitters and guides are used to cover 
costs of administering recreation permits issued to outfitters and 
guides under this authority as well as support operations, maintenance 
and amenity enhancement at facilities and trails used by these permit 
holders. Cabin rental fees are used almost exclusively for the upkeep 
and maintenance of these in-demand recreation resources. New recreation 
fees will be spent on the resources where fees are charged. For 
example, increased fees at Mendenhall Glacier and for cabin rentals 
will be used to support operations and maintenance at Mendenhall 
Glacier and add new amenities such as outdoor restrooms and wildlife 
viewing platforms to accommodate heavy visitor use and demands. 
Recreation fees are separate and distinct from appropriated funding for 
trails.
    There are requests for the Forest Service to increase commercial 
guiding opportunities, which are currently limited, for example by 
permit term length, and applications for special use permits have been 
denied due to lack of available capacity on the landscape and existing 
moratoria. However, there are over 400 commercial recreation service 
permits on two national forests in Alaska, which provide opportunities 
for the public to connect with the outdoors.
    Question. The Forest Service in a 2010 publication after you took 
over as chief stated that it requires a ``substantial investment ``in 
commercial thinning to obtain the 30-50 million board feet of young-
growth volume that you said in 2010 could be achievable within the 
first decade of a young-growth transition. So far, the Forest Service 
has only performed pre-commercial thinning in the Tongass.

        A.  How much timber needs to be commercially thinned in the 
        Tongass to meet your 30-50 million board feet level a year?

    Answer. ``The Economic Analysis of Southeast Alaska'', May 2010 was 
conducted, upon request, to ascertain the potential for a more rapid 
transition to a young growth based forest management program. Analysis 
and modeling was conducted based upon the best information available in 
2010. The 2010 report served as a point of reference; however, it did 
not form the baseline information used in the modeling for the Forest 
Plan Amendment nor did it drive any of the alternatives under 
consideration.
    The Forest Service has more current and accurate information on the 
ages, location and distribution of young growth stands which has been 
used for modeling in support of proposed alternatives in the Forest 
Plan Amendment. The 2010 report has not been used to drive budget 
requests or considerations with respect to commercial thinning in young 
growth stands nor has it been used to drive day to day considerations 
around the young growth transition.

        B.  How much timber will need to be pre-commercially thinned 
        for it to grow large enough to be profitable to harvest?

    Answer. The Tongass has already pre-commercially thinned over 
211,000 acres over the years and has identified an additional 84,000 
acres of potential pre-commercial thinning needs in the 15-30 year old 
age groups. The Tongass currently pre-commercially thins approximately 
5,500 acres per year across all previously harvested landscapes. While 
the activity advances stand structure towards optimal harvest 
specifications more rapidly than natural processes, pre-commercial 
thinning alone does not guarantee profitable harvest, as profitability 
is dictated more by markets, location, and harvest systems employed.
    For example, the Tongass Collaborative Stewardship Group and 
Tongass Transition Collaborative group recently visited a pre-
commercially thinned stand on Koscuisko Island, a highly productive 
site, and found a stand which was harvested in 1955, regenerated 
naturally and was pre-commercially thinned in 1977. The thinned stand 
generally has larger diameter and heights than adjacent un-thinned 
stands and consequently more standing volume per acre. An additional 
benefit of the pre-commercial thinning is increased understory plant 
occurrence and diversity beneficial to dependent wildlife species. The 
stand in question could be scheduled for a commercial thinning at this 
time while adjacent, un-thinned stands need an additional 10-20 years 
of growth before a harvest would be available.

        C.  What is the estimated cost of commercial and pre-commercial 
        thinning and have you proposed any money in your budget for 
        such work this year or next?

    Answer. The current annual program for pre-commercial thinning is 
approximately 6,200 acres per year at an average cost of $500 per acre. 
The Tongass plans to continue the program at the same pace into the 
future.
    Purchasers implement and pay for commercial thinning during 
execution of a timber sale. Forest Service pays for preparation work 
(designating and measuring trees to be harvested) predominantly using 
Forest Products funding, and administration of the contracts.

        D.  How much has the Forest Service funded for commercial 
        thinning on the Tongass in the past 15 years and what is your 
        expectation of the amount that your agency is planning to 
        devote to the transition over the next 10 years?

    Answer. The Forest Service does not fund the implementation of 
commercial thinning using discretionary budget resources. Commercial 
thinning is accomplished through timber sales. The Forest Service uses 
discretionary forest product funds to execute the planning, 
preparation, sale and administration of both old growth bridge timber 
and increasing amounts of commercial young growth timber.
    Question. I was disappointed to see that the Forest Service budget 
proposes to cut funding for minerals and geology management. As you 
know, in Alaska we rely on public lands for economic activity--with 
mining being an important economic driver in many communities. Sadly, 
your agency's unwillingness to prioritize mining development in Alaska 
is not surprising given the roadblock to development that the Roadless 
Rule presents. Mine exploration and development require road access to 
transport heavy equipment and to provide for affordable maintenance and 
operation. Arbitrarily prohibiting roads causes many otherwise 
excellent mining projects to be technically or economically infeasible.

        A.  What set of criteria will the Forest Service use to 
        evaluate a mining projects' economic and technical feasibility 
        to allow road access to such projects in and through Inventory 
        Roadless Areas under a new Tongass Transition Plan Amendment?

        B.  Will the Forest Service consider adopting a Mineral Land 
        Use Designation ``LUD'' to assure access to, and development of 
        mining claims on the Tongass National Forest (particularly in 
        Remote Recreation and other TUS Avoidance Areas) and on the 
        roughly 9.6 million acres of the Tongass National Forest 
        subject to the 2001 Roadless Rule?

    Answer. The current Tongass Forest Plan includes a Minerals Overlay 
with the stated goal ``to encourage the prospecting, exploration, 
development, mining, and processing of locatable minerals in the areas 
with the highest potential for mineral development.'' The proposed Plan 
Amendment retains the Minerals Overlay LUD with standards and 
guidelines for lands open to mineral entry that encourage the 
exploration, development and extraction of locatable, salable, and 
leasable minerals and energy resources, and also ensures the right of 
ingress and egress granted by the 1872 Mining Law and other laws and 
regulations. The Roadless Rule provides that a road may be constructed 
in an inventoried road less area if the Responsible Official determines 
that ``[a] road is needed pursuant to reserved or outstanding rights, 
or as provided for by statute or treaty''. The Forest Service 
recognizes the 1872 Mining Law gives a statutory right of reasonable 
and necessary access related to the exploration and development of 
mineral properties. This statutory right is subject to reasonable 
regulation for the protection of surface resources. The Forest Service 
will work with the project proponent to determine the permissible 
activities during environmental analysis of a proposed project.
    Question. Logging roads support multiple users of the Tongass 
National Forest, providing access for tourism, hunting, fishing, 
hiking, boating/kayaking, photography, wildlife viewing, subsistence 
activities, recreational vehicle use, and more. They also provide 
access for subsequent timber harvest rotations, access for commercial 
thinning, and thinning for wildlife and habitat management and even 
firefighting access. The budget request includes an astounding $22 
million cut to road maintenance and improvement.

        A.  With so many benefits to so many multiple users of the 
        forest, why has the Forest Service proposed a large cut to 
        roads funding in favor of engaging in the wasteful and 
        extremely costly practice of destroying these roads through 
        water barring, and other destructive activities?

    Answer. We agree that roads are important for providing safe and 
reliable access for recreation, emergency services, and resource 
management access, including timber harvest. Roads are important for 
public and management access, including timber harvest, but in an era 
of constrained budgets, we have to make difficult choices. We are 
currently faced with the dual challenges of overall budget constraints 
coupled with the ever-growing burden on our discretionary budget of 
Fire Suppression expenditures. These expenditures erode funding 
available to other Forest Service programs--including Roads. Fire now 
consumes more than 50 percent of the Forest Service budget, up from 16 
percent in 1995. Unless changes are made, fire management is 
anticipated to account for 67 percent of Forest Service budget by 2025, 
equating to reductions of nearly $700 million from non-fire programs 
compared to today's funding levels. The President's fiscal year 2017 
budget included a legislative proposal regarding funding for fire 
suppression to address this issue. Until the issue of how to fund fire 
suppression is resolved, funding for other programs such as Roads will 
be constrained.

        B.  There was a study several years ago that called for closing 
        more than 400 miles of such roads on the Tongass. What are the 
        Forest Service's current plans with respect to logging roads?

    Answer. The Tongass NF, along with all forests in the country, were 
required to complete an analysis of the risks, benefits, and costs of 
the current road system per the 2005 Travel Management Rule, (36 CFR 
212.5 Subpart A). The primary objective of this ``Travel Analysis'' was 
to help the agency identify and maintain an appropriately sized and 
environmentally sustainable road system that is responsive to 
ecological, economic, and social concerns. A second objective was to 
identify any roads that are no longer needed to meet forest resource 
management objectives and; therefore, should be scheduled for 
decommissioning or considered for other uses (36 CFR 212.5(b)).
    The Tongass has been implementing recommendations from the Travel 
Analysis Process. At this time the current Tongass road system consists 
of 3631 miles of roads under Forest Service jurisdiction. Of these, 
about 2188 miles are currently open (in use) and about 1443 are closed 
(decommissioned). If the forest implements the remainder of the 
recommendations from the Travel Analysis Process, then approximately 
another 455 miles would be moved from an open to a closed status, and 
about 40 additional miles that were determined to no longer be needed 
for resource management purposes would be decommissioned and removed 
from the road system altogether.
    It is important to remember that the roads that were proposed to be 
closed in the Travel Analysis Process were determined to still be 
important roads for resource management purposes, but could be better 
managed as intermittent use roads open and utilized for individual 
project purposes, and stabilized and put into storage between uses. By 
putting some roads into storage between project uses, the forest can 
address and mitigate some ecological concerns as well as make the road 
system a bit more affordable to maintain with reduced road maintenance 
funding.
                                 ______
                                 
                Questions Submitted by Senator Tom Udall
    Question. I understand that the Gila National Forest is finishing 
extensive work on the Catwalk National Recreation Trail's flood-damaged 
hanging walkways. There are several trail connections that are not part 
of the current project, but are critical to public access of the 
Catwalk from the hundreds of miles of trails within the Gila 
Wilderness. It is my understanding that specifically this would involve 
the reconstruction of a 3/4 mile trail and installation of several 
bridges. I would like to see funding provided for these ancillary 
projects so that there is complete access to this terrific asset, one 
of the most visited sites and largest economic drivers in the Gila. 
Once funded, how long will it take to complete the trail connections?
    Answer. We appreciate the support for our trails, and we understand 
the importance of the Catwalk to the Gila area. We also understand that 
there are portions of the Catwalk National Recreation Trail on the Gila 
National Forest that are not connected. In alignment with our National 
Strategy for a Sustainable Trails System, we aim to ensure that 
investments in our trails are financially sustainable and workable 
within the natural environment of the trail location. Unfortunately, 
the Catwalk Trail is in a 100-year flood zone. Previous trail 
connections have been destroyed by floods and rebuilt at increasing 
costs each time. The U.S. Geological Survey believes that recurring 
flooding will continue, and we have concerns that these bridges may 
worsen the effects of flooding and risks for communities downstream.
    If fully funded, this major project would take about 2 years to 
complete and would cost approximately $700,000. (For context, $700,000 
is about 30 percent of the trails funding available to the National 
Forest System's Region 3, which includes 10 other National Forests and 
four National Grasslands as well as the Gila NF). Consequently, cost-
effective trail maintenance is the priority in the region at this time. 
We look forward to working with you and your staff to continue and 
enhance the benefits that Forest Service Trails bring to the 
communities of New Mexico.
    Question. The Southwest Ecological Restoration Institutes, 
including the New Mexico Forest and Watershed Restoration Institute at 
New Mexico Highlands University, do important research related to 
natural resources, forest restoration, and wildland fire. How does the 
Forest Service utilize these institutes and how can we work together to 
expand their role in the future?
    Answer. The Southwest Ecological Restoration Institutes (SWERI) 
provides an important role in the transfer of current scientific 
information about management of fire-adapted ecosystems in the interior 
West. SWERI transfers current scientific information through all types 
of media, delivers short courses and workshops on ecological 
restoration and the historic conditions of the landscape, participates 
in collaboratives, and provides on-the-ground field consultations and 
rapid assessments to inform treatment designs. The current funding 
amount ($1.5 million) is consistent with the levels set by Congress 
when the Southwest Forest Health and Wildfire Prevention Act (which 
authorized funding to these Institutes) was passed. The amounts 
provided to each Institute are meant to align with their capacity and 
focus areas. The Forest Service has also provided additional funding to 
the Institutes through other partnerships and competitive processes. 
The Forest Service meets regularly with representatives from each 
Institute to discuss funding, upcoming work plans, and outyear 
planning. We encourage the Institutes to work together to identify the 
key roles that best leverage each Institute's unique capacities. We 
will continue to work with the Institutes, including having discussions 
about funding levels appropriate for each Institutes' outyear work 
plans.
    Question. Will you explain the importance of realigning the 
firefighting budget to include disaster funding to address the 
escalating costs, and some of the specific impacts the Forest Service 
has faced because of past increases in the fire budget?
    Answer. The administration's proposal for a new wildfire funding 
mechanism would allow us to continue to manage most wildland fires as 
we currently do, but would treat those fires that are most destructive 
and most costly outside of our budget. Approximately 1 percent of fires 
result in about 30 percent of suppression costs, and this new wildfire 
funding mechanism would allow those fires to be considered natural 
disasters.
    This is important for multiple reasons. The practice of fire 
borrowing, where funds are transferred in season from non-fire accounts 
to address suppression budget shortfalls, creates major disruption of 
project planning and implementation throughout the agency. Once fire 
borrowing is initiated, any funds that are not obligated across the 
agency are shifted to cover wildfire suppression costs. When funds are 
withdrawn from the units, some projects are canceled and others placed 
on hold. Investments that are made in planning and preparation may be 
lost when projects are not implemented and completed in a timely 
manner. This disruption affects both long term effectiveness of fire 
management as well as other projects that are important to communities 
affected by national forests.
    In addition to fire borrowing, the long-term erosion of the 
agency's capacity due to the need to budget for the 10-year average of 
wildfire suppression costs limits restoration work across the country. 
The growth in fire suppression costs has steadily consumed an ever-
increasing portion of the' agency's appropriated budget, at a rate of 
roughly $100 million a year over the last few years. This has meant 
that the cost of fire management has grown from 13 percent of the 
agency's budget in the 1990s to 56 percent in 2016--and could rise to 
67 percent by 2025. With constrained budgets, this has also meant that 
other programs have suffered diminished budgets. For example, fire 
staffing has increased by 114 percent since 1995, but in that same time 
period staffing levels for those dedicated to managing National Forest 
system lands has decreased by 39 percent. Both problems--the growth of 
fire programs as a percent of the agency's budget and the compounding 
problem of transfers or fire borrowing--need to be solved to allow us 
to invest further in the restoration and active management programs 
that will improve the health and resilience of forests and grasslands, 
including making them more resistant to wildland fire.
    Question. What is the schedule for transfer of the 7 C-130H 
aircraft from the Coast Guard, and what funds in the fiscal year 2017 
budget are associated with the transfer?
    Answer. The FS plans to take ownership of two C-130s in fiscal year 
2018, followed by four in fiscal year 2019 and one in fiscal year 2010. 
The fiscal year 2017 budget does not include funding associated with 
the transfers because the timing does not align with that fiscal year. 
However, in fiscal year 2017 we will use Preparedness funds to continue 
to establish the necessary support elements for the establishment of 
airbase(s) and operational capability for the C-130 program.
    Question. At what stage is the development of the tanking systems 
and other requirements in order to utilize the C-130Hs?
    Answer. The Air Force awarded the retardant delivery system (RDS) 
contract May 18, 2016. It is expected that the RDSs will be developed 
and installed in the first three C-130s in mid-2018.
    Question. What is the Forest Service plan for utilizing the $65 
million for acquisition of aircraft provided in fiscal year 2015?
    Answer. The Forest Service anticipates the Request for Proposals 
will be available by early- to mid-October, 2016. Upon the selection of 
a contractor to build the aircraft, the $65 million can be obligated. 
We plan on awarding a contract in the spring or early summer of fiscal 
year 2017 and taking delivery in fiscal year 2020.
    Question. When will any aircraft acquired with those funds be 
operational?
    Answer. Following award of the contract, delivery of an aircraft 
will take 2-3 years. We expect to be operational in fiscal year 2020.
    Question. In September 2015, the Forest Service used Suppression 
funding to complete contracts for exclusive-use air tankers, even 
though long-term contracts and underlying expenses should be paid for 
with Preparedness funds. What specific steps can the agency take to 
improve its ability to budget ahead for aviation contracts so this does 
not occur in the future?
    Do you expect to be in a similar situation at the end of fiscal 
year 2016 with similar contracts?
    Will the proposed flat funding for Preparedness cover the known 
aviation contracting costs for fiscal year 2017?
    Answer. Fire seasons are stochastic and unpredictable costs often 
arise. When this occurs, we have usually had to deviate from our 
planned business model for aviation contracts, and in 2016, we used 
Suppression funding to meet contractual obligations for exclusive-use 
air tankers, even though such long-term contracts and underlying 
expenses should be paid for with Preparedness funds.
    However, now that we have fully executed the Exclusive Use 
contracts for the Legacy and Next Generation large airtankers, and have 
begun to finalize the incorporation of the 7 C-130Hs from the military 
into our fleet, we can better predict the full costs of our airtanker 
modernization program. We will reevaluate all of these costs and 
incorporate them, as appropriate, into our out year Preparedness budget 
requests to minimize future deviation from our business model for 
aviation contracts.
    Question. Will the proposed flat funding for Preparedness allow the 
Forest Service to operationalize the Government-owned fleet (the C-
130Hs and the brand new aircraft)?
    Answer. As the military continues to operationalize the C-130Hs for 
the firefighting mission and we bring on new aircraft, which we have 
not owned or operated before, we expect resource requirements for 
Preparedness to change. We will evaluate these costs and incorporate 
them, as appropriate, into our out year Preparedness budget requests.
                                 ______
                                 
               Questions Submitted by Senator Jon Tester
    Question. Montana has a large backlog of expired or expiring 
recreation special-use permits. These permits authorize outfitters & 
guides, concessions, and many other types of organized use. Many 
forests in the State are slow to issue/reissue special-use permits and 
some forests have an outright moratorium. The budget request for fiscal 
year 2017 would fund recreation special-use permits at exactly one-half 
of the level needed to administer them as they need to be. In Montana 
the situation is more worrying where only about 25 percent of the 
recreation special-use permits were administered to standard in fiscal 
year 2015. What are you doing to clear the backlog of expired and 
expiring recreation special-use permits in Montana? When do you expect 
that those seeking new recreation special-use permits will not be 
turned away?
    Answer. We recognize the importance of facilitating recreational 
access to National Forest System lands. This year, the Forest Service's 
Backlog Strike Team is working to address currently expired 
authorizations and to reduce the number of yearly expirations. As 
expired permits are reauthorized, we will have increased capacity to 
issue new permits. To both address the backlog and be in a better 
position to address requests for new special use permits, the Forest 
Service requested an additional $2 million in fiscal year 2017 to help 
modernize its permitting program, as well as workforce Development. All 
of these efforts will be addressed at different timelines between now 
and calendar year 2018.
    In addition, the Forest Service is implementing a broad effort to 
modernize Recreation Special Uses, which is focused on enhancing guest 
services. Currently we are clarifying and simplifying policy around 
when special use permits would be required for temporary and priority 
outfitter activities. We are simplifying processes to facilitate access 
for hosted activities such as youth groups and educational 
organizations. We are developing standardized national training for 
Recreation Special Uses. Finally, process improvements are underway for 
modernization of our internal business tools and creating an electronic 
permit application process. We are working closely with outfitters and 
guides and other permittees on these process improvements.
    Question. Montana's national forests do not have the capacity that 
they once had just 10 years ago to provide for forest products. The 
number of specialists and technical experts has declined significantly 
over the last decade in Region 1 and in Montana. For example, there are 
about one-half the number of wildlife biologists in Montana than in 
2004. What effect, if any, does this decline in capacity in the region 
have on slowing the processing of timber sales and making projects more 
vulnerable to litigation? Does the fiscal year 2017 budget request 
provide Montana's national forests with enough capacity to help achieve 
the national goal of 3.2 billion board feet?
    Answer. Yes, the fiscal year 2017 budget request provides Montana's 
national forests with enough capacity to help achieve the national goal 
of 3.2 billion board feet. The expected timber volume sold target for 
fiscal year 2016 and fiscal year 2017 is 3,200 MMBF, an increase from 
2,867 MMBF sold in fiscal year 2015. The agency recognizes that these 
are challenging goals and has taken a number of steps in fiscal year 
2016 across all Regions to rebuild capacity--including making 
additional investments in hiring and training needed specialists--to 
meet our restoration and timber goals for fiscal year 2016 and position 
us for the future. To complement this rebuilding of personnel capacity, 
the 2014 Farm Bill Authorities provide valuable tools that help the 
agency in increasing the pace and scale of forest, watershed and 
grassland restoration. Region 1 has leveraged these authorities 
effectively within their work and we are identifying opportunities to 
increase their use agency-wide. While there are many factors that 
affect litigation, we don't believe that loss of capacity has had a 
causal effect on the number of projects litigated.
    Question. The Stewardship Program provides assistance through State 
Foresters to thousands of family owned forests. This assistance often 
reduces the risk of catastrophic wildfire and insect and disease 
epidemics from spreading on to public lands, protecting public forests 
and watersheds. This program creates a win-win situation for family 
owned forests and taxpayers. Family owned forests provide a significant 
portion of Montana's wood supply, which is particularly important 
because of the uncertainty of wood supply coming from the region's 
Federal forests. Funding for this program is important to the Montana 
Department of Natural Resources and Conservation to continue to provide 
assistance by agency foresters and Montana State University Forestry 
Extension staff to private forest landowners. Why are you proposing to 
increase the Agency's hazardous fuels and forest management budgets for 
Federal lands yet decrease funding to the Stewardship Program in fiscal 
year 2017?
    Answer. The reduction in the Forest Stewardship Program proposed in 
the President's budget is just one example of how the Forest Service is 
managing the high cost of wildland fire given a flat budget request. 
Programs throughout the agency have taken slight to moderate reductions 
in the President's budget to compensate for increasing wildland fire 
costs.
                                 ______
                                 
              Questions Submitted by Senator Steve Daines
    Question. The fiscal year 2015 Conference Report contained language 
that directed the Forest Service to work with State foresters to 
identify ways to more efficiently deliver the Forest Inventory and 
Analysis program in all States, including timely inventory updates, and 
should explore opportunities in how States and their cooperators may be 
able to accomplish necessary field work at a lower cost. What steps has 
the Forest Service taken to work with State foresters to carry out this 
direction?
    Answer. Forest Inventory and Analysis (FIA) produces an Annual 
Business Report which outlines both partner contributions and grants to 
partners. Currently, about 34 percent of FIA's work, predominantly 
field work, is contracted to partners. In addition, many research tasks 
that require specific skills that may not be needed long-term are 
contracted to universities and administered by FIA scientists. The 
general rule is, if partners at a lower cost can accomplish an FIA task 
to the program's rigid quality assurance specifications, FIA contracts 
the task.
    Question. We understand that the overhead the Forest Service takes 
off of the top of the Forest Inventory and Analysis program to 
administer this program may be significant? Can you provide how much 
funding the Forest Service takes from the appropriated amount for 
overhead expenses along with information on how this amount is 
calculated?
    Answer. The rates of effective indirect expenses for the four 
Research Stations with FIA field units ranged from 11 to 15 percent 
across the country (Appendix Table B-2, Financial Statement for the 
fiscal year 2015 FIA Business Report). This reflects differences in 
both sources of funding and in Research Station indirect expense 
assessment practices. An additional charge for the Albuquerque Service 
Center assessed at the national-level brings the program's overall 
indirect expenses to 20.7 percent.
    Question. The 2014 Farm Bill directed State foresters to take a 
comprehensive look at forests in all ownership categories across their 
States and develop State Forest Action plans. These State Forest Action 
Plans identify priorities in order to direct limited resources to where 
they are most needed. Can you provide details on how the National 
Forests are working with their respective State forester to accomplish 
the objectives and priorities detailed in those plans to ensure 
comprehensive forest management within the State?
    Answer. The Forest Service has encouraged all National Forests to 
work with State Foresters to support the implementation of State Forest 
Action Plans. Some National Forests are working more closely with State 
Foresters than others, but the agency is working towards collaborating 
closely with all States.
    In July 2014, Montana's Governor Bullock announced his Forests in 
Focus initiative, which includes a component that focuses on Federal 
Forest Management. The Montana Department of Natural Resources (DNRC) 
funded a shared liaison position to assist Region 1 with identifying 
opportunities for using the 2014 Farm Bill Insect and Disease and Good 
Neighbor authorities, as well as facilitate and expand partnerships 
with other State and Federal agencies, local governments, collaborative 
working groups and other external stakeholders. The Governor also 
invested $2 million in Forest Service projects accomplishing work in 
the priority landscapes (designated areas). The Forest Service-DNRC 
Liaison manages the distribution and oversight of these funds and works 
closely with the Forest Service Insect and Disease Project Coordinator 
to understand where investments will best increase forest capacity.
    Additional efforts are occurring across all Regions. For example, 
the Forest Service's Landscape Scale Restoration program funds 
innovative, cross-boundary projects that target priority areas in the 
States' Forest Action Plans as those most in need of forest health 
improvement. We funded three Montana projects in the past, and are 
requesting an increase of $9.5 million in fiscal year 2017 to fund 
approximately 20 more projects. The agency is also currently conducting 
a series of meeting in the regions to identify opportunities and 
challenges to increase the use of the Farm Bill authorities.
    Question. Over 80 percent of wildfires occur on non-Federal lands 
and over one-fourth of the acreage burned is on non-Federal lands. Much 
of that acreage and many of those fires overlap with Federal lands. A 
core element of the State Fire Assistance program is to provide 
critical resources for State and local fire departments to address 
wildfire suppression with funding for equipment and fire fighter 
training. As you know, initial attack capability is the key to keeping 
wildfire impacts to a minimum and State and private resources are 
critical to that effort. Why is the Forest Service proposing no 
increase in the State Fire Assistance program funding for fiscal year 
2017 while requesting an increase in its suppression funding?
    Answer. The requested funding level in State Fire Assistance 
proposed in the President's budget is just one example of how the 
Forest Service is managing the high cost of wildland fire given a flat 
budget request. Programs throughout the agency have taken slight to 
moderate reductions in the President's budget to compensate for 
increasing wildland fire costs, so we consider level funding to be a 
strong sign of support for both State Fire Assistance and Volunteer 
Fire Assistance.
    Question. An estimated two-thirds of the Nation's forests are State 
and private forests covering approximately 500 million acres. The 
Stewardship Program provides assistance through the State foresters to 
hundreds of thousands of individual families in helping them develop 
plans for managing their forests. Ninety percent of those plans are 
successfully implemented. Those plans when implemented often reduce the 
risk of catastrophic wildfire and insect and disease epidemics from 
spreading on to public lands, protecting public forests and watersheds. 
As a by-product of those plans, forests owned by individual families 
provide almost 50 percent of the Nation's wood supply and employment 
opportunities for over a million Americans. Why is the Forest Service 
proposing decrease funding to the Stewardship program in fiscal year 
2017?
    Answer. The reduction in the Forest Stewardship Program proposed in 
the President's budget is just one example of how the Forest Service is 
managing the high cost of wildland fire given a flat budget request. 
Programs throughout the agency have taken slight to moderate reductions 
in the President's budget to compensate for increasing wildland fire 
costs.

                          SUBCOMMITTEE RECESS

    And with this, the subcommittee stands adjourned.
    [Whereupon, at 12:00 p.m., Wednesday, April 6, the 
subcommittee was recessed, to reconvene subject to the call of 
the Chair.]
</pre></body></html>
